<html>
<title> - KATHLEEN CLARKE NOMINATION</title>
<body><pre>[Senate Hearing 107-351]
[From the U.S. Government Printing Office]



                                                        S. Hrg. 107-351
 
                       KATHLEEN CLARKE NOMINATION
=======================================================================



                                HEARING

                               before the

                              COMMITTEE ON
                      ENERGY AND NATURAL RESOURCES
                          UNITED STATES SENATE

                      ONE HUNDRED SEVENTH CONGRESS

                             FIRST SESSION

NOMINATION OF KATHLEEN CLARKE, NOMINEE TO BE DIRECTOR OF THE BUREAU OF 
           LAND MANAGEMENT FOR THE DEPARTMENT OF THE INTERIOR

                               __________

                           NOVEMBER 14, 2001










                       Printed for the use of the
               Committee on Energy and Natural Resources


                        U.S. GOVERNMENT PRINTING OFFICE
78-372                          WASHINGTON : 2002
_____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office 
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512-1800  
Fax: (202) 512-2250 Mail: Stop SSOP, Washington, DC 20402-0001















               COMMITTEE ON ENERGY AND NATURAL RESOURCES

                  JEFF BINGAMAN, New Mexico, Chairman
DANIEL K. AKAKA, Hawaii              FRANK H. MURKOWSKI, Alaska
BYRON L. DORGAN, North Dakota        PETE V. DOMENICI, New Mexico
BOB GRAHAM, Florida                  DON NICKLES, Oklahoma
RON WYDEN, Oregon                    LARRY E. CRAIG, Idaho
TIM JOHNSON, South Dakota            BEN NIGHTHORSE CAMPBELL, Colorado
MARY L. LANDRIEU, Louisiana          CRAIG THOMAS, Wyoming
EVAN BAYH, Indiana                   RICHARD C. SHELBY, Alabama
DIANNE FEINSTEIN, California         CONRAD BURNS, Montana
CHARLES E. SCHUMER, New York         JON KYL, Arizona
MARIA CANTWELL, Washington           CHUCK HAGEL, Nebraska
THOMAS R. CARPER, Delaware           GORDON SMITH, Oregon

                    Robert M. Simon, Staff Director
                      Sam E. Fowler, Chief Counsel
               Brian P. Malnak, Republican Staff Director
               James P. Beirne, Republican Chief Counsel












                            C O N T E N T S

                              ----------                              

                               STATEMENTS

                                                                   Page

Bennett, Hon. Robert F., U.S. Senator from Utah..................     5
Bingaman, Hon. Jeff, U.S. Senator from New Mexico................     1
Clarke, Kathleen, Nominee to be Director of the Bureau of Land 
  Management.....................................................     7
Domenici, Hon. Pete V., U.S. Senator from New Mexico.............     1
Hatch, Hon. Orrin G., U.S. Senator from Utah.....................     3
Murkowski, Hon. Frank H., U.S. Senator from Alaska...............     4
Thomas, Hon. Craig, U.S. Senator from Wyoming....................     2

                                APPENDIX

Responses to additional questions................................    27















                       KATHLEEN CLARKE NOMINATION

                              ----------                              


                      WEDNESDAY, NOVEMBER 14, 2001

                                       U.S. Senate,
                 Committee on Energy and Natural Resources,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 9:32 a.m., in 
room SD-366, Dirksen Senate Office Building, Hon. Jeff 
Bingaman, chairman, presiding.

           OPENING STATEMENT OF HON. JEFF BINGAMAN, 
                  U.S. SENATOR FROM NEW MEXICO

    The Chairman. The committee will come to order.
    The purpose of today's hearing is to consider the 
nomination of Kathleen Clarke to be the Director of the Bureau 
of Land Management. Without objection, Ms. Clarke's prepared 
statement will be entered into the record.
    Senator Murkowski, I understand, is on his way and asked us 
not to wait on him.
    Let me ask if Senator Thomas has any opening statement he 
would like to make.
    [A prepared statement from Senator Domenici follows:]
       Prepared Statement of Hon. Pete V. Domenici, U.S. Senator 
                            From New Mexico
    Mr. Chairman, I appreciate your calling this hearing today and your 
continuing efforts to fill the ranks at the Interior Department. I am 
confident that Secretary Norton is also appreciative to have vital 
positions filled and all qualified nominees confirmed.
    I believe that Ms. Clarke will prove to be an invaluable resource 
to the Department of the Interior, and I fully support her nomination. 
She has an excellent record in natural resource conservation.
    For example, Kathleen Clarke served as the executive director of 
the Utah Department of Natural Resources since 1998. During her tenure, 
she managed seven divisions responsible for a broad range of natural 
resource issues. Prior to that, she served as the department's deputy 
director.
    In Utah, Ms. Clarke worked on programs important to the protection 
of endangered species and water resources management. Both of these 
issues are crucial to New Mexico's future. I look forward to working 
with a director familiar with the challenges Western states face in 
balancing resource conservation and their state's water needs.
    Additionally, with so much land managed by the federal Bureau of 
Land Management in New Mexico, I look forward to working with Ms. 
Clarke on eliminating the backlog on BLM grazing permit renewals, 
streamlining the BLM Oil and Gas permitting process in this time of 
foreign energy dependence, and furthering the use of Recreation and 
Public Purpose lands for land-locked community use. I applaud President 
Bush's nomination of Kathleen Clarke, and support her as BLM Director 
to address these and other land management issues important to our 
nation.

         STATEMENT OF HON. CRAIG THOMAS, U.S. SENATOR 
                          FROM WYOMING

    Senator Thomas. Well, thank you, Mr. Chairman. I simply 
want to thank you, first of all, for having this hearing and 
welcome Ms. Clarke here.
    As you know, for those of us in the West, this is a very 
important agency, a very important position. Roughly half of 
our State is owned by the Federal Government. Much of it is 
managed by BLM. So, it is very important. We are very 
interested, of course, in the multiple use concept, the idea of 
access to these lands, and yet at the same time, of course, 
protecting the environment and protecting the lands as well.
    I just would also like to say that I visited with this lady 
and certainly appreciate her points of view, and I hope that 
those points of view and the points of view of this 
administration can be put down through the State and local BLM 
so that we are quite certain on the ground it is being 
administered in the way that the Department here would like to 
have that done.
    So, I will not take any longer, but I do welcome you. And 
thank you for having the hearing.
    [The prepared statement of Senator Thomas follows:]
   Prepared Statement of Hon. Craig Thomas, U.S. Senator From Wyoming
    Mr. Chairman, thank you for holding this hearing today to discuss 
Kathleen Clarke's nomination for the Director of the Bureau of Land 
Management.
    Roughly 50 percent of Wyoming is owned by the federal government. 
Decisions made by the BLM impact jobs, local communities and virtually 
every segment of Wyoming's economy. Unfortunately, many folks believe 
the Director Secretary of the Interior has more impact on the economy 
of Wyoming than any citizen of the state.
    I remain committed to the concept of multiple use of federal lands 
in Wyoming and throughout the West. Clearly, we should work to protect 
public lands in the West, but we must also strive to keep the majority 
of these areas open for multiple use purposes. Notwithstanding the 
rhetoric of the extremist groups, these two goals do not run contrary 
to one another. We can develop reasonable solutions to land management 
questions in the West so that it is a ``win-win'' strategy for 
everyone.
    This agency is dire need of leadership. In recent years, the BLM 
has shown a blatant disregard for our public process laws and has 
lacked the leadership necessary to ensure the enjoyment of our natural 
resources by many future generations. We need a real commitment from 
BLM's leadership to develop some real solutions to address the problems 
that have seriously undermined our public lands.
    Mr. Chairman, it is time for our nation to begin setting priorities 
regarding management of federal lands. The Department of the Interior 
must also begin to set priorities on where we should spend our limited 
budget dollars. The days of spending money on every federal program are 
over. We must begin to establish priorities for our federal land 
management agencies that will allow us to spend our funds where they 
are truly needed. Until we are willing to make these tough choices, our 
budget dollars will continue to be stretched further and further and 
our natural resources and other important public land opportunities 
will continue to be under funded.
    Thank you again for holding this hearing today. I look forward to 
hearing the testimony of Mrs. Clarke and the opportunity to review the 
Administration's nominee for the Director of the Bureau of Land 
Management.

    The Chairman. Sure.
    Senator Burns, did you have any opening statement?
    Senator Burns. I have no opening statement. Is that all 
right?
    The Chairman. That is fine.
    We have two of our distinguished members here to introduce 
the nominee, Senator Hatch and Senator Bennett. Let us call on 
you for any statement you would like to make.
    Senator Hatch.

        STATEMENT OF HON. ORRIN G. HATCH, U.S. SENATOR 
                           FROM UTAH

    Senator Hatch. Well, thank you so much, Mr. Chairman. We 
are grateful to be here. I noticed my nameplate fell right off.
    The Chairman. Yes, I noticed that.
    Senator Hatch. I hope that is not a bad omen here.
    [Laughter.]
    Senator Hatch. But we are grateful that you have held this 
hearing and you are holding it on behalf of a very fine human 
being, somebody who is honest, who has worked in the highest 
way in the service to our home State of Utah and, of course, in 
other ways as well, and who we believe has as much ability and 
capacity to head the BLM as anybody in the history of the BLM.
    We also know that she will treat this job with dispassion--
well, passion in doing the job, but dispassion with regard to 
both sides of the floor here in the U.S. Senate. She will truly 
be a bipartisan person who will work in the best interests of 
public lands.
    As you know, the BLM has an awful lot to do with the State 
of Utah, as it does with your State and the other States that 
are represented here today. But, in particular, in Utah we have 
tremendous problems.
    I can remember years gone by when I had to go to one 
section of Utah and diffuse it because during the Carter years, 
BLM employees were having target practice with human-like sized 
targets, and it was very offensive to some of the people in 
Utah who then themselves did some things that would be 
considered a little bit unusual by almost anybody. And it was a 
very tense, difficult thing. I had to really have them check 
their guns at the door almost before I held this meeting down 
in Moab, Utah.
    And a lot of the problems were caused because, I think, of 
a failure on the part of those were then leading the BLM to be 
considerate of the needs of the people within the State and the 
laws that literally they were called upon to enforce at that 
time.
    Kathleen Clarke will enforce the laws. She will abide by 
the laws. She will do this in the highest sense of 
statesmanship and effort. We have total confidence in her and 
we believe that this committee will benefit from having her 
insights with regard to BLM lands, and we also believe that she 
is the type of a person who we all owe a debt of gratitude to 
for being willing to work in the Government to come here to 
Washington out of the beautiful State of Utah and to do this 
very, very difficult and tough job.
    So, we recommend her totally, as strongly as I possibly 
can, and I would hope that this committee will immediately act 
on her nomination and get her to the floor and get her into 
this job as soon as possible because it is an important job, as 
we all know, and she is very capable of fulfilling it.
    Thank you, Mr. Chairman.
    [The prepared statement of Senator Hatch follows:]
   Prepared Statement of Hon. Orrin G. Hatch, U.S. Senator From Utah
    Mr. Chairman, I thank you for holding this important hearing today 
and for allowing me to make a few remarks on behalf of Kathleen Clarke, 
President Bush's nominee for Director of the Bureau of Land Management.
    As the members of this committee know, the BLM oversees 264 million 
acres of public land, or one-eighth of our nation's land mass. This 
includes deserts, forests, mountain ranges, grasslands, and arctic 
tundra. The BLM must manage these lands for wildlife habitat, mineral 
and energy development, wilderness values, timber harvesting, 
archeological and paleontological resources, historic preservation, 
livestock grazing, and recreation. Balancing these competing values is 
tough assignment, and management decisions for BLM lands are often 
controversial.
    I believe it was precisely for this reason that President Bush 
tapped Kathleen Clark for BLM director. No stranger to land management, 
Kathleen has served as executive director of the Utah Department of 
Natural Resources since 1998. Prior to that, she was the deputy 
director from 1993-1998. Utah's state lands are dispersed in a 
checkerboard pattern throughout Utah's 22 million acres of BLM land and 
8 million acres of National Forest. Not only did Ms. Clarke have to 
manage the state's vast land holdings, but she was required to 
coordinate many of her decisions with federal land managers. She has 
been a land manager in her own right, but she knows as well as anyone 
can how national policies impact state and local interests.
    For that reason, Kathleen Clarke is the right person for the job. 
She is a moderate, balanced professional who is well known for her 
ability to incorporate diverse interests and to find solutions to 
complex situations. And Ms. Clarke is no stranger to Congress or the 
legislative process. For six years she worked for Chairman Jim Hansen, 
and she also worked for Senator William F. Bennett, not to be confused 
with his son, my good friend Senator Robert Bennett. Kathleen has all 
the right tools to lead the Bureau of Land Management. She is a fine 
American, and I might add that if nominated, Ms. Clarke will be the 
first woman director of the BLM.
    Again, Mr. Chairman, I applaud you for holding this nomination 
hearing, and I am grateful for an opportunity to sing the praises of 
Kathleen Clarke. I look forward to her swift and successful 
confirmation. Thank you.

    The Chairman. Well, thank you very much.
    Before I call on Senator Bennett, let me just see if 
Senator Murkowski had any statement he wished to make at this 
point.

      STATEMENT OF HON. FRANK H. MURKOWSKI, U.S. SENATOR 
                          FROM ALASKA

    Senator Murkowski. Thank you very much, Mr. Chairman.
    I certainly want to join my colleagues in welcoming our 
nominee. This is a difficult task, the Director of the Bureau, 
with responsibility for some 260 million acres of surface 
estate. A large portion is in my State of Alaska, about 87 
million acres out of the 260 million. The resource potential of 
these lands, whether it be grazing, timber, oil and gas 
activities, is very important to the economy of this Nation, as 
well as our energy self-sufficiency.
    These lands are important, of course, for coal. Sixty 
percent of the significant deposits of commercial coal are on 
Federal lands.
    We have recently experienced a little episode in your State 
of Utah, Senators, and I am sure that you could update us on 
that if it was necessary. But I think it represents a reality 
that the State of Utah is dependent on the revenues from land 
grants for schools and that was taken over without a public 
process, which I felt was extraordinary. The fact the 
announcement was made outside the State of Utah is even more 
revealing.
    But rather than going back and reliving history, I think it 
is important to recognize that we have a tremendous obligation 
relative to stewardship, and I think Kathleen Clarke is 
certainly up to the challenges ahead and I look forward to 
working with her.
    Thank you.
    The Chairman. Thank you very much.
    Senator Bennett, why don't you go right ahead with your 
statement?

       STATEMENT OF HON. ROBERT F. BENNETT, U.S. SENATOR 
                           FROM UTAH

    Senator Bennett. Thank you, Mr. Chairman. I appreciate the 
opportunity to add my voice to Senator Hatch's in endorsing 
this nomination and urging the committee to act in an 
expeditious way to move it forward.
    Kathleen Clarke has, I think, an interesting and very 
valuable background to qualify her for this position. She 
understands the Congress. Her first experience in governmental 
service was on my father's staff shortly after she graduated 
from Utah State University. So, she has served on the Senate 
side. On the House side, she served as the State director for 
Congressman Jim Hansen who is now chairman of this 
corresponding committee in the House. So, she comes with 
congressional credentials that will serve her well in 
understanding how the Congress works. We have had some 
experience with BLM directors who were well qualified from the 
administrative side, but maybe lacked an understanding of how 
the Congress worked and what the oversight situation is. She 
does not have that gap in her background.
    Now, one of the problems with BLM, as we all understand, 
has been sometimes in working with the States, not quite 
understanding the role that the State agencies play in managing 
lands. And she served as a member of Governor Levitt's cabinet 
as the executive director of the Utah Department of Natural 
Resources. So, in that role, she has had to work with State 
agencies in a State that is over 67 percent Federal managed. 
She has had to interact with the Federal managers, and she 
knows how those agencies can work together and how they maybe 
cannot. So, she comes with that perspective that I think is 
also very valuable.
    Then, being the director of a State agency, a member of the 
Governor's cabinet, she has had to put together an agency 
budget, work with the State legislature in getting it adopted, 
and managing over 1,200 employees in seven State agencies. She 
was instrumental in organizing that office into seven divisions 
to give a degree of organizational harmony and structure that 
perhaps was not there prior to her tenure.
    I offer those examples of the credentials she brings to the 
job: understanding of the Congress, understanding of the State 
relationship with Federal agencies, understanding of management 
to put together an agency and run it. I think we are very 
fortunate that she is willing to do this.
    I visited with her and know that her first reaction was 
that she was not willing to do this. She is not one who came 
rushing for Federal office or the glory of a Federal title. She 
has four children of college age and wanted to remain in Utah. 
The administration came after her and became insistent that she 
was the one they wanted in this position. And I am delighted 
that she was willing to answer that call from her country and 
say, okay, if you really want me that badly, why, I will do it 
even though it represents some kind of disruption of her 
personal circumstance.
    I think we have here the combination of the perfect 
candidate, the right kind of background, the right kind of 
temperament, the right sort of understanding of the issues, and 
a response to a patriotic call rather than a personal agenda of 
things she wants to fulfill. I am happy to add my full 
endorsement to that of Senator Hatch and urge the committee to 
move promptly and affirmatively on this nomination.
    [The prepared statement of Senator Bennett follows:]
  Prepared Statement of Hon. Robert F. Bennett, U.S. Senator From Utah
    Mr. Chairman, Senator Murkowski, this morning I am pleased to 
introduce to the committee Ms. Kathleen Clarke, President Bush's able 
nominee to be Director of the Bureau of Land Management. I thank the 
committee for holding this very important confirmation hearing today. 
As many of my western colleagues can attest, the Director of the BLM 
holds substantial sway over significant portions of their states; in my 
state of Utah the BLM is responsible for the stewardship of 23 million 
acres or approximately 40% of the total land area. There is no more 
significant federal agency in Utah than the BLM.
    I cannot think of a better person to take the helm of the BLM to 
manage our public lands and its important resources than Kathleen 
Clarke. I have known Kathy for many years. Kathy has had a very 
distinguished career, working for my father, Senator Wallace F. 
Bennett, a few years after graduation from Utah State University, then 
working her way up to be Representative Jim Hansen's district director, 
and now finally working for the State of Utah Department of Natural 
Resources, first as deputy director and for the last three years as its 
executive director. During her tenure as executive director Kathy has 
transformed the DNR into a streamlined organization of seven divisions 
all focusing on a common goal of integrated and holistic resource 
management.
    Being the director of the DNR in a state that is 68% federally 
managed, Kathy has worked closely with all of the federal land 
management agencies. As deputy director, Kathy helped develop the 
Natural Resources Coordinating Council. The NRCC's purpose is to 
provide a forum for state and federal land managers in Utah to network 
and identify opportunities for collaboration and cooperation. I believe 
Kathy will bring this forward looking approach to the BLM. Meaningful 
involvement by states and localities in land management decisions will 
be a hallmark of her directorship.
    Kathy also brings a very important but often overlooked skill to a 
federal agency, that of an administrator. Kathy has developed an agency 
budget, submitted it to and worked with the state legislature to secure 
funding, and she has managed over 1,200 employees in seven agencies. As 
executive director, Kathy has found budget savings and improved 
customer service, all skills sorely needed in our federal agencies.
    I greatly appreciate Kathy Clarke's willingness to share her 
leadership, expertise, and know-how with the BLM. I also appreciate the 
sacrifices she is making to be the BLM director; Kathy has four 
college-aged children who will remain in Utah as she serves the public 
here in Washington. I believe Kathy summed up her feelings about this 
position very appropriately when she said ``I love the West, and the 
only thing that's drawing me to Washington is my hope to help shape the 
West in a positive way.''
    Mr. Chairman and Senator Murkowski, I appreciate the opportunity to 
speak this morning in support of Kathy Clarke's nomination. I greatly 
hope that the committee will move this nomination to the floor quickly. 
Thank you.

    The Chairman. Well, thank you very much for that statement. 
I thank both of you for your strong statements.
    Ms. Clarke, why do you not come ahead and we will go ahead 
with your testimony.
    The rules of the committee that apply to all nominees 
require that nominees be sworn in connection with their 
testimony. Would you begin by standing and raising your right 
hand please?
    Do you solemnly swear that the testimony you are about to 
give to the Senate Committee on Energy and Natural Resources 
shall be the truth, the whole truth, and nothing but the truth?
    Ms. Clarke. I do.
    The Chairman. Please be seated.
    Before you begin your statement, let me ask the three 
questions that we address to each nominee that comes before 
this committee.
    The first question: Will you be available to appear before 
this committee and other congressional committees to represent 
departmental positions and respond to issues of concern to the 
Congress?
    Ms. Clarke. I will.
    The Chairman. Second question: Are you aware of any 
personal holdings, investments, or interests that could 
constitute a conflict of interest or create the appearance of 
such a conflict should you be confirmed and assume the office 
to which you have been nominated by the President?
    Ms. Clarke. My investments, personal holdings, and other 
interests have been reviewed both by myself and the appropriate 
ethics counselors within the Federal Government. I have taken 
appropriate action to avoid any conflict of interest and there 
are no conflicts of interest or appearances thereof to my 
knowledge.
    The Chairman. Finally, the third question: Are you involved 
or do you have any assets that are held in blind trust?
    Ms. Clarke. No.
    The Chairman. At this point, let me invite you to introduce 
any family members you would like to and then to go ahead with 
any opening statement.
    Ms. Clarke. Thank you very much, Senator.
    I am pleased today to invite two of my four children who 
have joined me today. This is my son David Clarke, and his wife 
Rachel. I also have a son Joshua Clarke here and a friend, Tacy 
Bracken, and a sister-in-law, Amy Burton.
    The Chairman. Well, we welcome all of them and appreciate 
their being here for this.
    Ms. Clarke. Thank you.
    The Chairman. Why do you not go ahead with your statement.

  TESTIMONY OF KATHLEEN CLARKE, NOMINEE TO BE DIRECTOR OF THE 
                   BUREAU OF LAND MANAGEMENT

    Ms. Clarke. Thank you.
    First of all, I would like to say that I am very, very 
proud to be an American and deeply honored to be nominated by 
President Bush to serve my country during these challenging 
times. America's darkest hours have always brought out the best 
in our people and our leaders and have produced unparalleled 
resolve and unity. Certainly the events of recent weeks helped 
to remind us that freedom is not a state of tranquility but 
that the battles we have won before must be fought again and 
again.
    They also remind us as public servants of the tremendous 
responsibility we have to make sure our public institutions are 
dynamic and able to respond to the changing needs of our Nation 
and the forces of globalization. Today national interest takes 
on greater meaning and our top priority should be to make sure 
our institutions can respond to the serious challenges now 
confronting our Nation.
    I would like to express my appreciation to President Bush 
and to Secretary Norton for their confidence and their trust in 
my ability to manage the responsibilities and challenges that 
fall to the Director of the Bureau of Land Management. If 
confirmed to this position, I pledge to uphold the law and to 
work in a bipartisan way in overseeing stewardship of the 264 
million acres of Federal land and 700 million additional acres 
of subsurface minerals under BLM management.
    As executive director of Utah's Department of Natural 
Resources, I am pleased that we have been able to pull together 
an agency with multiple legislative mandates and divergent 
interests to work toward common goals. We have involved 
communities in making decisions and addressing problems that 
affect their lives. We have worked with farmers and ranchers 
and landowners to identify ways to enhance the economic 
productivity of their land while supporting healthy natural 
systems. We have promoted public and personal stewardship 
ethics and have launched initiatives aimed at preserving 
critical lands, reducing our consumption of water and energy, 
protecting wildlife, and living with wildland fire, all the 
while working to maintain a healthy economy. And we have made a 
difference.
    Whatever success I have had in leading the department I 
attribute to the passion and commitment I have about the issues 
affecting our Nation, my confidence in our public servants and 
institutions, my faith in the goodness of the American people, 
and my optimistic belief that the Nation's best days lie ahead.
    The BLM manages one-fifth of the public lands in the West, 
including land in 11 of the country's 15 fastest growing 
States. In 1945, the West's population was 17 million, and 
today it is over 60 million. Such rapid growth has heightened 
conflict and debate over management choices affecting our 
public lands and natural resources. I do not believe we have 
the option of choosing between the demands of growth and the 
imperative for conservation. We must do both. This will require 
that the BLM take a balanced approach in conserving our public 
lands, while sustaining their productivity. We must be willing 
to take a fresh look at the agency, keep and shore up what is 
working well, and reassess and renew that which is not.
    One of the keys in making organizations dynamic and able to 
respond to change is for its leadership to believe in and trust 
its people to make decisions and to take risks. Our challenge 
is to give them direction and support and unleash their 
creativity. It is also essential that the BLM work to overcome 
artificial bureaucratic borders and share and focus resources 
with other agencies around common problems.
    The Federal Land Policy and Management Act of 1976 directs 
the BLM to work with State and local governments in the 
management of public lands and to consult with all interested 
parties in making decisions. I believe that we can find 
reasonable, workable solutions to our problems if we are humble 
enough to realize that sometimes the best ideas come from 
individuals and groups outside our systems. It serves us well 
to remember that the real journey of discovery lies not in 
seeing new landscapes but in having new eyes.
    Given the new economy and the crisis America faces today, 
we must pay special attention to the laws that direct BLM to 
manage public lands in a manner that recognizes our Nation's 
need for domestic resources. Secretary Norton has set forth a 
vision for the Department of the Interior that embraces the 
importance of protecting our natural resources and managing 
them in a way that promotes a healthy environment and a strong 
economy. This is particularly important at this time in our 
Nation's history, and the BLM is in a key position to promote 
that vision. It would be a privilege to be a part of that 
effort.
    And Mr. Chairman, I would be remiss if I did not take a 
moment to express to you and to the members of this committee 
how much I look forward to working with the Congress, should I 
be confirmed. The issues and problems we face will be solved 
much more successfully if we work together to find solutions, 
and I pledge to you today that I will do that. As a former 
staff member to both a Senator and a Representative and a 
citizen who cherishes our representative form of government, I 
understand fully and appreciate the important role of the 
Congress on behalf of the people of our great country.
    Again, thank you for the opportunity to appear before you 
today, and I thank you too for your efforts and for those of 
your staff. I am absolutely confident, should I be confirmed, 
that our relationship will be positive and productive. Thank 
you very much. And I would welcome your questions.
    [The prepared statement of Ms. Clarke follows:]
 Prepared Statement of Kathleen Clarke, Nominee To Be Director of the 
                       Bureau of Land Management
    First, I want to say that I am very, very proud to be an American 
and deeply honored to be nominated by President Bush to serve my 
country during these challenging times. America's darkest hours have 
always brought out the best in our people and our leaders, and have 
produced unparalleled resolve and unity. Certainly, the events of 
recent weeks help to remind us that freedom is not a state of 
tranquility and that the battles we have won before must be fought 
again and again.
    They also remind us, as public servants, of the tremendous 
responsibility we have to make sure our public institutions are dynamic 
and able to respond to the changing needs of our nation and the forces 
of globalization. Today, ``national interest'' takes on greater meaning 
and our top priority should be to make sure our institutions can 
respond to the serious challenges now confronting our nation.
    I would like to express my appreciation to President Bush and 
Secretary Norton for their confidence and trust in my ability to manage 
the responsibilities and challenges that fall to the director of the 
Bureau of Land Management. If confirmed to this position, I pledge to 
uphold the law and to work in a bipartisan way in overseeing 
stewardship of the 264 million acres of federal land and 700 million 
additional acres of subsurface minerals under BLM management.
    As executive director of Utah's Department of Natural Resources, I 
am pleased that we have been able to pull together an agency with 
multiple legislative mandates and divergent interests to work towards 
common goals. We have involved communities in making decisions and 
addressing problems that affect their lives. We have worked with 
farmers, ranchers, and landowners to identify ways to enhance the 
economic productivity of their land while supporting healthy natural 
systems. We have promoted public and personal stewardship ethics and 
have launched initiatives aimed at preserving critical lands, reducing 
our consumption of water and energy, protecting wildlife, and living 
with wildland fire--all while working to maintain a healthy economy. 
And we have made a difference.
    Whatever success I have had in leading the department I attribute 
to the passion and commitment I have about the issues affecting our 
nation, my confidence in our public servants and institutions, my faith 
in the goodness of America's people, and my optimistic belief that our 
nation's best days lie ahead.
    The BLM manages 1/5 of the public lands in the West including land 
in 11 of the country's 15 fastest growing states. In 1945, the West's 
population was 17 million and today it is more than 60 million. Such 
rapid growth has heightened conflict and debate over management choices 
affecting our public lands and natural resources. I don't believe we 
have the option of choosing between the demands of growth and the 
imperative for conservation. We must do both! This will require that 
the BLM take a balanced approach in conserving our public lands while 
sustaining their productivity. We must be willing to take a fresh look 
at the agency, keep and shore up what is working well, and reassess and 
renew what is not.
    One of the keys in making organizations dynamic and able to respond 
to change is for its leadership to believe in and trust its people to 
make decisions and take risks. Our challenge is to give them direction 
and support and unleash their creativity. It is also essential that the 
BLM work to overcome artificial bureaucratic borders and share and 
focus resources with other agencies around common problems.
    The Federal Land Policy and Management Act of 1976 directs the BLM 
to work with state and local governments in the management of public 
lands and to consult with all interested parties in making decisions. I 
believe that we can find reasonable, workable solutions to our problems 
if we are humble enough to realize that sometimes the best ideas come 
from individuals and groups outside our systems. It serves us well to 
remember that ``The real journey of discovery lies not in seeing new 
landscapes but in having new eyes.''
    Given the new economy and the crisis America faces today, we must 
pay special attention to laws that direct the BLM to manage public 
lands in a manner that recognizes our nation's need for domestic 
resources. Secretary Norton has set forth a vision for the Department 
of the Interior that embraces the importance of protecting our natural 
resources and managing them in a way that promotes a healthy 
environment and a strong economy. This is particularly important at 
this time in our nation's history and the BLM is in a key position to 
promote that vision. It would be a privilege to be a part of that 
effort.
    And Mr. Chairman, I would be remiss if I didn't take a moment to 
express to you and the members of this committee how much I look 
forward to working with the Congress, should I be confirmed. The issues 
and problems we face will be solved much more successfully if we work 
together to find solutions, and I pledge to you today that I will do 
that. As a former staff member to both a senator and a representative, 
and as a citizen who cherishes our representative form of government, I 
understand fully and appreciate the important role the Congress plays 
on behalf of the people of our great country. Again, thank you for the 
opportunity to appear before you today, and thank you, too, for your 
efforts and those of your staff. I am absolutely confident, should I be 
confirmed, that our relationship will be positive and productive.
    Thank you. I welcome any questions.

    The Chairman. Well, thank you for that very excellent 
statement.
    Let me start with a few questions. One relates to fire 
management and that will be a responsibility, obviously, that 
you will share with other agencies. The National Fire Plan that 
was put in place last year had the Secretary of the Interior 
creating the Office of Wildland Fire Coordination to ensure the 
implementation of the plan and to coordinate all of the various 
agencies' fire policies--that includes the BLM's policy--and to 
measure performance and accountability.
    It is my understanding that that secretarial order out of 
the Secretary of the Interior establishing the office expires 
on December 22, a little over a month from now, and it is 
unclear whether the administration plans to eliminate this 
office. Given the recent GAO report stating that the Federal 
Government needs to increase interagency coordination on fire 
management, I think it is important that we try to keep this 
office in place. I did not know if you had a chance to focus on 
that or if you have an opinion, but I would be anxious to hear 
it if you do.
    Ms. Clarke. Mr. Chairman, I have not personally gotten 
involved in the discussion regarding the fire coordinator's 
office, but I certainly would agree that there needs to be a 
high degree of collaboration and consultation between agencies 
within the Department of the Interior, as well as with the 
Forest Service and the Department of Agriculture. And if 
confirmed, I would look forward to working in a cooperative 
fashion with other agencies to make sure we are addressing the 
wildland fire challenges that confront our Nation at this time.
    The Chairman. One of the other obvious responsibilities you 
will have in this new position will be deciding on what your 
funding priorities are for the BLM in the coming years. One 
issue that we have discussed repeatedly here in recent years 
has been the funding levels for this National Fire Plan. 
Unfortunately, the budget we received earlier this year in the 
Interior appropriation proposal essentially eliminated the 
rehabilitation and restoration funding for burned-over areas.
    I would like any opinion you have as to what priority 
should be assigned to continued funding of the Fire Plan for a 
significant number of years. I think many of us on this 
committee have expressed our view that unless we can maintain 
this effort for 10 or 15 years, we are not going to really have 
the impact we need to have.
    Ms. Clarke. I think the health of our natural resources, 
our rangelands and forest lands, is certainly very, very 
critical. I am not familiar with the budget discussions that 
may have taken place at the Department of the Interior that 
included BLM relative to the Fire Plan, so it would be 
premature for me to comment on why those decisions were made. 
But I would certainly look forward to working with this body 
and with my colleagues at the Department of the Interior to 
prioritize properly budget needs within the Department.
    The Chairman. One other issue that I discussed a little 
with you when we had a chance to visit yesterday relates to the 
management of resources by focusing on watersheds. The BLM, as 
I understand it, has been actively pursuing a watershed 
approach to resource management in recent years. I mentioned 
the Rio Puerco as one watershed within our State of New Mexico 
that we have tried to have a focus on. Have you had experience 
with watershed management? Do you have views as to the 
appropriateness of that way of organizing the BLM's efforts?
    Ms. Clarke. I have had experience in watershed management 
and have found it to be very useful. It certainly provides a 
basin opportunity, a drainage basin or a watershed area where 
we can go into a resource area and usually we get a lot of 
people that have some common interests in that together. And I 
would look forward to working on the Rio Puerco, I know, in 
your State which is an area of great concern and to other 
watershed challenges throughout the BLM.
    The Chairman. Thank you.
    Let me also just raise an issue that I have been interested 
in now for several years and that is the funding for Youth 
Conservation Corps programs. You are familiar with the history 
of it I am sure. But there was a period where Congress and the 
Federal Government provided significant funds to employ young 
people in the summers to work in assisting with trail 
maintenance and other activities in our national forests and on 
our public lands generally. Unfortunately, that has been cut 
way, way back, and we are in the process of trying to begin to 
move this into a higher priority. I do not know if you have had 
any experience with the Youth Conservation Corps type 
activities in Utah. If you have or have any views on the value 
of those, I would be anxious to hear them.
    Ms. Clarke. I have not had any direct experience, but I am 
a firm believer in building citizen stewards throughout our 
Nation, and I think it is the way we are going to be able to 
coalesce our efforts to make sure we are conserving and taking 
care of our resource base. So, I would look forward to learning 
more about this program and working with you on that.
    The Chairman. Fine. Thank you very much.
    Senator Murkowski.
    Senator Murkowski. Thank you.
    As you know, Alaska is a pretty big piece of real estate, 
365 million acres, and at Statehood, we were to receive about 
104 million acres. We are almost to the 50th anniversary of 
Statehood, almost a lifetime has passed, and still we are short 
16.3 million acres which remain to be turned over to the State. 
As the head of the agency with primary responsibility, I wonder 
if you could familiarize yourself with that agreement and give 
us some idea when we might expect the full transfer of the land 
that was promised under statehood. Forty-one million acres have 
been turned over to the State. Forty-six million acres are in 
what they call interim conveyances, but another 16.3 million 
acres remain to be transferred.
    Ms. Clarke. Senator, I am not familiar with what may have 
transpired or the reasons that this has not been completed, but 
I would commit to you that I would certainly look into that and 
get back with you.
    Senator Murkowski. I appreciate that, because a lifetime 
means different things to different people. I think most people 
figure 50 years ought to be enough time for the Federal 
Government to fulfill its promises.
    A couple of other quick questions relative to your area of 
responsibility. In addition to the land conveyance issue, your 
responsibility also involves the renewal of the Trans-Alaska or 
the TAPS pipeline reauthorization.
    As you know, this pipeline was built in the early 1970's 
and has transported about 20 percent of the total crude oil 
produced in this Nation for the last 27 years, or thereabouts. 
The pipeline had a 30-year authorization. It is my 
understanding that the manner in which this reauthorization 
will occur will require a full EIS. Yet, we feel a little 
sensitive because, to our understanding, this is the only 
pipeline renewal that has ever required a full EIS. They are 
usually renewed on the basis of an environmental assessment. I 
would ask you why this is different. Maybe you do not have the 
answer now.
    Ms. Clarke. Senator, I do not have the answer, and I do not 
know what the justification is for demanding an EIS on this 
renewal, but I would certainly commit to you to take a look at 
that and to make sure that we move forward expeditiously to get 
that renewal in place in a timely fashion.
    Senator Murkowski. Well, if it would help you, I posed the 
same question to the previous person that had your 
responsibility and the explanation was, well, Alaska is 
different, which I will concede, and secondly, it is 
controversial. Now, that does not satisfy most of us.
    Ms. Clarke. I would be pleased to look into that.
    Senator Murkowski. We would like a little better 
explanation.
    One of the concerns we have is what they call the 
cumulative impact assessment. In a full EIS you could say, 
well, what is the reauthorization of this pipeline for another 
30 years going to have on air quality in southern California. 
You could hire a whole bunch of folks that could go down those 
rabbit trails. We are just concerned about being treated fairly 
and in a responsible manner. We are not trying to dodge the 
procedure, but I think we are entitled to an explanation and we 
will look forward to that.
    Ms. Clarke. Thank you.
    Senator Murkowski. The last question is relative to mining 
in Alaska. As you know, the previous administration did a 
pretty good job of shutting down mining on public lands in this 
country. Thanks to Secretary Norton, we have seen some of the 
more egregious sections of the regulation package nullified. 
There is a lot more work to be done. The Secretary has 
reproposed the mining regulations for a 60-day public comment 
period. It is especially important that we hear the concerns of 
all miners, including those in my State of Alaska.
    One of the issues is the area of bonding. It is a 
formidable problem for small miners. I do not know if you know 
how you are planning to proceed with the regulatory review at 
the close of the comment period and what steps you might be 
taking to make sure that bonding regulations do not simply 
drive the small miners out of business. I am wondering if you 
have any comments on either one of those.
    Ms. Clarke. Senator, I have not been involved in any of the 
policy discussions relative to 3809 mining laws, but would 
commit to you to get involved, should I be confirmed, and to 
make sure that we are giving due consideration to the impacts 
of those regulations on all parties.
    Senator Murkowski. Well, I appreciate that. My time is up. 
I want to wish you well and you certainly have my support.
    Ms. Clarke. Thank you, Senator.
    The Chairman. Senator Wyden.
    Senator Wyden. Thank you, Mr. Chairman.
    Welcome, Ms. Clarke. I enjoyed visiting with you yesterday, 
and I think you know that I particularly want to talk to you 
about how we might go forward working with you in a bipartisan 
way to build on, I think, the very significant precedent that 
was set last year on the county payments legislation. This was 
something that Senator Craig and I worked on and the Forest 
Service called the most important bill in the last 3 decades 
for the agency. And I would like to build on it.
    It seems to me that the next step should really be one that 
involves additional protection for old growth while at the same 
time ensuring that there be a substantial thinning program so 
we to get some of that dead material off the forest floor: a 
significant forest health initiative. I think there are a 
number of steps, some of which come from Senator Craig's past 
legislation that would expedite the planning process.
    I will tell you I was disappointed that at the hearing that 
was held on old growth in my subcommittee, the agency did not 
come prepared to talk about old growth. They wanted to talk 
about just about everything else. I do not expect anybody to 
agree with me on everything, but I would like your pledge this 
morning that as we go forward in a bipartisan way, trying to 
build on the very significant success of the last session, that 
you will work with us, work with Senator Craig and me, in an 
activist kind of fashion. We are going to come up with some 
definitions of old growth. As you know, there are many 
differences of opinion there. But we need you at the table, and 
the agency was not there at the hearing on old growth, and I 
want that to change.
    Ms. Clarke. You have my commitment that we would be at the 
table and willing to discuss and pursue options on that matter 
with you, Senator.
    Senator Wyden. Okay.
    Let me ask you a couple of questions about monuments. As 
you know, there is a new initiative underway there, as well as 
the matter of the monuments that were designated by President 
Clinton are reviewed by Secretary Norton. Secretary Norton sent 
out letters to Governors and elected officials with respect to 
their input, and I think that is very welcomed. But I do not 
think that that is a representative target group. I think there 
are a lot of other people who care about these issues, and I 
gather that you all received thousands and thousands of 
unsolicited responses from citizens and public interest groups.
    I guess I would like to start by saying, have you read any 
of those unsolicited letters?
    Ms. Clarke. I have not read any of the correspondence to 
the BLM or to the Department of the Interior relative to the 
Secretary's invitation for comments.
    Senator Wyden. Well, what are your thoughts on opening up 
the process here if there is going to be a new system for 
dealing with monuments to ensure again that we have everybody 
at the table? I do not want to keep coming back to this, but I 
think the reason that Senator Craig and I were able to get 
beyond some of the old sort of positions where everybody has 
read their statement from the last 20 years to each other is we 
brought everybody to the table. I look at this monument 
process, and I sure do not see a diversity of citizen input on 
it. I can tell you people in Oregon feel very disenfranchised 
by the limited audience that has been asked to comment on the 
monument process. I want to work with you and I want to work 
with the Secretary. I want to do what Senator Craig and I did 
last session, but we cannot do it if we are only looking at one 
side of the spectrum.
    Ms. Clarke. Senator, I am absolute believer in a broad, 
collaborative, open process for making important decisions that 
affect public lands and natural resources throughout the 
country, and that would extend to decisions affecting those 
monuments. I would look forward to working with you and this 
committee in that regard.
    Senator Wyden. So, would you say you agree with Secretary 
Norton on the idea of only soliciting testimony from elected 
officials and Governors, or do you agree with me that there 
needs to be more efforts to get a diversity of opinion if there 
is going to be a major policy shift here?
    Ms. Clarke. Senator, I believe the Secretary was reaching 
out in good faith. I have not discussed with her what her 
motivation or rationale was for the approach she has taken. So, 
I would decline to comment on that at this point. But I think 
my understanding is that if there are significant requests for 
revisions in monument boundaries or monument management plans, 
that they would turn to a delegation and ask that that be 
brought to the Congress for review, which would give it a 
broader base.
    I certainly, again, would be happy to get into this if I am 
confirmed. Many of these monuments are of great concern to 
communities, but I would work with you and with my colleagues 
at Interior, should I be confirmed, to resolve this issue.
    Senator Wyden. So, on the question of soliciting the input 
of ranchers, conservation groups, environmental groups, you 
want to go in the direction of getting that input before you 
make decisions.
    Ms. Clarke. I would welcome input from anyone who wants to 
provide input.
    Senator Wyden. All right. Well, that is not being done now. 
I recognize that you will want to talk with the Secretary about 
it, but I do not think that is how we are going to make real 
progress in the natural resources area. You have got to give 
everybody a chance to be part of the debate. That is not being 
done with respect to monuments.
    I have some other questions that I would like to furnish 
for the record. In terms of the Cascade/Siskiyou monument, we 
have got an opportunity now to have a major breakthrough 
because the big timber companies and the environmentalists want 
to go forward with a kind of exchange and purchase arrangement, 
and yet BLM seems to be holding it up. My guess is you have not 
had time to review that. I am going to ask about that in 
writing from you.
    But those are the kinds of partnerships I want to see. What 
I am troubled about is I seem to get the sense that 
partnerships are something that are good when industry likes 
them. My sense is partnerships have got to have both 
environmental and industry considerations blended. That is what 
we did in our county payments bill and that is what I want to 
have happen on your watch.
    Thank you, Mr. Chairman.
    The Chairman. Thank you.
    Senator Thomas.
    Senator Thomas. Thank you, sir.
    One of the things that does not seem to change is when BLM 
has wilderness areas nominated, but there is never any action 
on them but they go on forever. What is your view on that?
    Ms. Clarke. My understanding is we completed inventories of 
BLM wilderness study areas and recommended those to Congress 
back in 1991, and I think the BLM would welcome the action of 
Congress on making a decision as to whether to actually make 
those wilderness areas. There continues to be discussion in 
many States as to additional wilderness study areas. I am not 
aware that we are settling those. So, it would be a welcome 
opportunity to see some of those resolved.
    Senator Thomas. But I think the question is I have no 
problem with recommendations or nominations and considerations, 
but nominating them should not be a permanent arrangement and 
that is what has happened.
    Ms. Clarke. Certainly you are correct. As I say, I would 
welcome the opportunity to make some firm decisions on many of 
those wilderness study areas and to try to resolve what the 
permanent status is of those lands.
    Senator Thomas. Some believe there ought to be a time 
limit. If nothing happens in X number of years, why, it reverts 
to where it was.
    Ms. Clarke. And I would turn to you folks to consider that 
possibility and would work with you in resolving those 
wilderness conflicts.
    Senator Thomas. Clean Water Action Plan--very important 
non-point source kinds of things--more and more becomes a 
method of managing lands. How do you view working with the 
Clean Water Action Plan?
    Ms. Clarke. I have worked with the Clean Water Action Plan 
at the State and have found it to be a useful tool when we have 
a cooperative effort in that regard. I know the Farm Bureau in 
the State of Utah has taken a very aggressive action themselves 
to work collaboratively with Federal and State agencies in 
pursuing management plans on the ground that help them 
accomplish the objectives and goals of the Clean Action Plan. 
So, I think appropriately used, it is a good tool.
    Senator Thomas. Local input I think is key.
    Ms. Clarke. Absolutely.
    Senator Thomas. As you know, on coal bed methane, much of 
which is on Federal lands managed by BLM, the bottom line, of 
course, is that there have been conflicting leases between coal 
and gas. Do you think legislation is necessary to resolve those 
conflicts, or do you think BLM could find some remedies?
    Ms. Clarke. I would certainly hope that we could find 
remedies and solutions. We may need to turn to the Congress for 
some assistance if we find obstacles that need legislative 
remedies. But I am a believer that there is usually 
opportunities to work together and to move forward when we are 
willing to sit down together and explore the challenges and 
look for those solutions.
    Senator Thomas. I was told a couple of years ago that BLM 
was going to come up with some solutions, but the problem still 
exists.
    Ms. Clarke. I would be happy to look into it, find out what 
efforts may have been made to resolve those, and see what I can 
do to add some momentum to that, if I should be confirmed, sir.
    Senator Thomas. I assume that the administration, through 
you, will have some areas where they have different views than 
the last administration. How do you ensure that the 
administration's point of view happens on the ground?
    Ms. Clarke. I think a leader has a responsibility to make 
sure every person within that organization understands the 
goals and objectives, the values that are driving that 
organization, and I would accept responsibility to make sure 
that the folks within the BLM at the ground level understand 
the rules of the road, as they have been applied by this 
administration.
    Senator Thomas. Sometimes it appears to be different to get 
implementation all the way down to the ground.
    Ms. Clarke. Often it is, and we have career employees who 
have been here, and I know that sometimes they can entrench 
themselves and sort of go into a bunker mentality. Again, I 
think that is a leadership challenge to make sure you are 
getting the message and the vision out there and that you are 
moving people forward in a positive direction.
    Senator Thomas. Good. That never happens here, of course.
    [Laughter.]
    Senator Thomas. Thank you, and we are pleased to have you 
here. I certainly will support your nomination.
    Ms. Clarke. Thank you, Senator.
    The Chairman. Senator Burns.
    Senator Burns. Thank you, Mr. Chairman.
    Ms. Clarke, thank you for coming today and being willing to 
take this job.
    There are two environmental EIS's being done in the 
country, and one of them is in Wyoming and one of them is in 
Montana with regard to coal bed methane. And the BLM is a co-
lead on those things. We would certainly like to see those 
things completed as fast as we possibly can.
    Then also, in the last Interior appropriations, we put 
language in there trying to inventory where we think our best 
prospects are as far as energy development is concerned. I am 
still concerned about this country and energy security. I know 
that on BLM and Federal lands there is quite a lot of gas and 
there is quite a lot of oil that has not been developed yet. 
And I would like that survey to move forward.
    In the areas of national monuments, we have a huge one now 
in Montana as a result of the last administration, and the 
Secretary has told us that she is unable to change the 
boundaries on those that was in the original signed by 
President Clinton. We have got some private lands inside those 
boundaries, and so I would like your assurance that we will 
work with those landlocked landowners until we get legislation 
that can probably either make a land trade or whatever. But we 
are just now starting that process. And I would like your 
assurance on that.
    Ms. Clarke. You bet. I would be happy to work with you and 
to work with those landowners until we can get this matter 
resolved.
    Senator Burns. Then I was going up across country here a 
couple of weeks ago. On watershed management, you said you had 
a lot to do with that. We would like a little water to manage.
    [Laughter.]
    Senator Burns. It is dry. Some of our country up there is 
in bad need. I am going to try to get some more legislation 
about offstream storage because I think right now if there is 
ever a time in this country that we need some more storage of 
water, to store it, to use it, to retain some of that spring 
runoff--it also has great environmental value but also has 
great value to the country.
    I will look forward to working with you. Even though you 
worked for Jim Hansen, I will overlook that.
    [Laughter.]
    Senator Burns. Good luck to you.
    Ms. Clarke. Thank you very much, Senator.
    The Chairman. Senator Craig.
    Senator Craig. Mr. Chairman, thank you very much. I will be 
brief this morning.
    Kathleen, as you know, when we visited yesterday, I was 
suffering a bit of laryngitis, and it may be a little better 
but not where I would like it.
    Senator Burns. Whatever you have been drinking, we got a 
bad batch.
    [Laughter.]
    Senator Craig. It is the absence of water in the West, 
Conrad.
    It is my understanding, Ms. Clarke, that in your past State 
government position, you supported Conservation and 
Reinvestment Act legislation, better known as CARA. Many of us 
on this side of the aisle and many westerners opposed it not 
because of its wildlife habitat, conservation, and reclamation 
incentives, but because there was being developed a large trust 
fund for the purposes of the acquisition of private lands to be 
made public.
    I believe you said your State was 69 percent Federal. Your 
bordering State, my State of Idaho, is 63 percent Federal. And 
I have held the position that we really do not need any more 
Federal acres in our State. That is not to deny that there are 
not some lands that are private that are extremely valuable and 
fragile resources that we might not exchange Federal land with 
to acquire for Federal protection, but just to acquire more 
depletes all kinds of economic bases in the Western public land 
States.
    I guess I am not asking you a question as much as I want to 
at least confirm with you your commitment to work with Congress 
in any Federal land acquisition project.
    Ms. Clarke. I would absolutely commit to that. I do not 
believe the Federal Government should acquire lands in States 
unless they are working with the local government there to make 
sure that it is compatible uses. So, I would look forward to 
working with you, Senator.
    Senator Craig. Some of us have looked at a no net loss 
approach toward any resolution of the offshore monies of the 
Land and Water Conservation Fund that might ultimately move 
into a CARA approach, and that is one that many of us, I think, 
in the West appreciate and recognize would be an important 
balance.
    Given your involvement in R.S. 2477 right-of-ways, could 
you please give me an overview of how you feel the BLM should 
address this issue?
    Ms. Clarke. I know that the BLM right now is working with 
the Department of the Interior to try and resolve the lawsuit 
with the State of Utah. I certainly have respect for those R.S. 
2477 rights, as they have been established by law, and would 
look forward to the opportunity to work with all of those 
people involved in that negotiation, and again, feel like it is 
appropriate that we do sit down at the table and try to come up 
with negotiated settlements to those disputes.
    Senator Craig. Well, as you know, whether it be Idaho, 
Utah, Wyoming, or other Western States, R.S. 2477 rights-of-way 
are oftentimes the only access that remains on public lands, 
and there are a good many who would like to deny that access.
    Speaking of roads or access and unroaded areas and the 
effort that President Clinton tried a year and a half ago to be 
denied largely by the courts that he could not do that, because 
Congress was bound up in itself, better known as the roadless 
area review initiative, that was attempting to put large tracts 
of unroaded lands out of access or off limits, we still have on 
our public lands predominantly Forest Service, but also BLM, a 
roads issue and a roads problem. And this is an issue that will 
not go away.
    Senator Thomas mentioned the issue of wilderness 
recommendations. The last administration was the first 
administration, since the Wilderness Act, to not recommend any 
wilderness. They thought they were going to be able to sweep it 
all in in one grand style and were denied that by the courts.
    I have recommended to Secretary Veneman and to Secretary 
Norton that we have a process, and that I would be very anxious 
to see this administration out recommending wilderness of that 
which fell in to the RARE II roadless review process and the 
BLM process. That is the way it ought to be done instead of to 
create some arbitrary executive order that denies the 
congressional process.
    My guess is this committee would be very active. Our Public 
Lands Subcommittee that is now chaired by my colleague, Ron 
Wyden--and Ron and I work very well together--would also be 
very active in holding hearings and gaining the public input 
for making those decisions instead of just letting it sit out 
there in limbo and cause the conflicts that exist now that 
ultimately brought President Clinton to an extraordinary effort 
that failed.
    I do not necessarily expect a comment on that from you 
other than to say it is an issue that begs solution and we 
ought to address it, if we can.
    I mentioned to you yesterday that issue of Oust, a 
herbicide applied by the BLM to knock down cheat grass so that 
perennial grasses could come back, usually applied after a fire 
scenario. And fire management was mentioned. Of course, as you 
know from our conversation, it was applied. The wind took it 
later, spread it across private lands, destroyed crops, and 
created a liability that could be approximately $100 million 
that I believe BLM has some responsibility for.
    The Idaho congressional delegation is going to be pursuing 
that issue. I have made notice in the Appropriations Committee. 
The Senator from New Mexico, Senator Domenici, has been very 
helpful in trying to understand that with me. It is one of 
those unique kinds of situations. We will work with you on it.
    Lastly, I currently have a bill, S. 198, that deals with 
noxious weeds. While the world is concerned about the health of 
our forests and the large fuel buildup that is creating the 
catastrophic fire events that we have seen the last number of 
years, there is something else going on not only on the Forest 
Service lands, but on the lands that you are the chief steward 
for and that is noxious weeds. They are in many instances 
totally making the land inaccessible to human and wildlife and 
grazing livestock. We must--you must--become an aggressive 
advocate of a plan that begins to work with counties and States 
as a neighbor and as a landlord to resolve that. The 
legislation I am talking about, the work we have done the last 
couple of years, I think gets us a long way down that road.
    You may wish to comment on that.
    Ms. Clarke. I certainly would commit to working with this 
committee and with the House of Representatives and my 
colleagues both at Interior and in the Department of 
Agriculture, because this is a very serious problem, and I 
would agree with your assessment that it is a threat to the 
health of those lands and resources and to those who use them.
    Senator Craig. Well, the red light is on and my time is up. 
There are several other questions that I may submit to you in 
writing.
    Ms. Clarke. Very fine.
    Senator Craig. You are phenomenally well qualified to serve 
in this capacity. And while the Director of the BLM may not 
make headlines on the east coast, you have become one of my 
primary landlords. You make headlines in Idaho and other 
Western public land States. You are a very important person to 
us.
    And as we wrestle through this energy crisis problem in our 
country, you also will play an extremely valuable role with the 
subsurface issues and those that will talk out of both sides of 
their mouth, advocating an energy policy but denying access to 
it. And somehow we have got to work that out as a Congress. We 
are heading in that direction now, and I hope we can get there 
for the sake of our country. And in the midst of all of that, 
you are going to be caught in the whirlwind of making those 
decisions and helping provide the regulatory process that gets 
us to those resources.
    Thank you very much.
    Ms. Clarke. Thank you, Senator.
    The Chairman. Senator Smith.
    Senator Smith. Ms. Clarke, are you a native of Utah?
    Ms. Clarke. Yes, sir, I am.
    Senator Smith. Where did you grow up in Utah?
    Ms. Clarke. I grew up in Bountiful, Utah.
    Senator Smith. I am searching my memory of my own 
genealogy. I wonder if we have some ancestors in common. 
Anyway, that is not important here.
    But what is important is my State is the 10th largest in 
terms of size, in geography, in the United States, and you 
control more than one-quarter of it. In 1937, a bunch of acts 
were passed relative to Oregon and California and the BLM 
lands, that they were to be managed for the economic well-being 
of the counties involved. I must tell you this is my own 
editorial comment, but I think in the past decade, the fishing, 
farming, forestry industries have been under assault in a way 
that has left them in economic extremes. Oregon has benefitted 
much from high tech and tourism, but those two industries just 
hit the wall and there are no skid marks. As a consequence, 
Oregon has probably the highest unemployment in America now.
    And I guess I am asking for your commitment to go back to 
the statutory directions on the BLM to manage these lands for 
the economic well-being of the counties. I wonder if that is 
your orientation.
    Ms. Clarke. Senator, I would commit to you to go back and 
not only look at those statutes but seek to provide a balanced 
management scheme for those lands so that, as I indicated in my 
opening statement, we are demonstrating concern for economic 
stability in our country as well as for the natural resource 
base and making sure that we are taking good care of that as 
well.
    Senator Smith. I would commend to you the work of the 
Oregon congressional delegation on the Steens Mountain project 
that we did together, Republicans and Democrats, 
environmentalists and natural resource users, that instead of 
just declaring a monument, we did something much better. We 
actually accounted for the economic and environmental values 
that were worthy of preservation, and we preserved them both. I 
think it is a model, if this administration would pursue it, 
that I think would live up to its environmental duty and also 
its economic duty. I hope that can be a model all over the 
West.
    Are you aware of a policy in BLM that when BLM lands are on 
fire, that you're instructed to just let it burn and to keep 
off of it private interests who would like to help put out the 
fire but are being told they are not interested in their help 
and go ahead and let it burn?
    Ms. Clarke. I am only distantly familiar with some of those 
regs and have heard about them more as rumors. But I am not 
familiar with details and certainly would want to take a look 
at that.
    Senator Smith. I would commend it to your investigation. 
These are people, obviously, who want to graze cattle on public 
lands and do so under permits and under the environmental 
obligations that go with those permits. But they were told that 
it was supposed to just burn. Obviously, that puts them out as 
well.
    On the Steens Mountain, can you let me know if your 
Department needs any additional resources to carry out the 
implementation of its scoping process for its management plan?
    Ms. Clarke. Today, I could not answer that question, but 
Senator, I will be happy to look into that and let you know if 
we have got sufficient resources to see that project through.
    Senator Smith. In that area, the Burns Paiute Tribe is 
intertwined in the history of that mountain, and it is 
important to assist the tribe in recording and archiving its 
oral history. I hope your Department will secure the funds that 
will enable that tribe to move forward with this very important 
ancestral project.
    Ms. Clarke. I will certainly be willing to take a look at 
that and see in what way we could provide some assistance.
    Senator Smith. Also, Kathleen, one of the primary concerns 
of the Cascade/Siskiyou National Monument is the effect on 
property inholders, those who have been, obviously, pursuing 
their livelihoods and now find themselves within the boundaries 
of a national monument. I want to make sure that BLM is 
committed to protecting access rights for private property 
holders within the national monument. I am hoping that you will 
come up with a management plan that will reflect this.
    Ms. Clarke. I am not familiar with the details of the 
management plan of that monument, but certainly I would agree 
with you that it is important that inholders be able to access 
their lands, and we would work to find solutions to the 
challenges in those areas.
    Senator Smith. I wish you all good things and hope to be 
regarded as a friend and an ally. I know the people of rural 
Oregon are looking forward to your management of this important 
agency, as it certainly does reflect very heavily upon what 
kind of condition my whole State is in. Thank you.
    Ms. Clarke. Thank you, Senator.
    The Chairman. Senator Domenici.
    Senator Domenici. Thank you very much, Mr. Chairman. I know 
it is difficult for you to stay here as long as you have to 
stay, and I will try to be as short as possible.
    The Chairman. I think Senator Wyden is going to ask 
additional questions, so take what time you need.
    Senator Domenici. In other words, even if I am finished, 
you have to stay here.
    The Chairman. That is right. I am going to be here quite a 
while, so go right ahead.
    [Laughter.]
    Senator Domenici. Well, listen, if I were the chairman, I 
would rather hear Pete Domenici than Senator Wyden.
    [Laughter.]
    Senator Domenici. So, I am going to take a lot of time so 
you will just get a little. Anyway, I am pleased that you are 
going to stay around and ask some questions.
    Mr. Chairman, thanks for calling the hearing. Obviously, we 
need to get on with this nominee.
    And I want to say to you, ma'am, I do not know you but you 
come with very, very exciting recommendations. While you are 
taking on a difficult job, it appears to me from just observing 
you here this morning, that you do that with a great deal of 
enthusiasm. Am I right?
    Ms. Clarke. You are, sir. Thank you.
    Senator Domenici. And even if it is difficult--and you know 
that. There are many bridges that we have got to cross that we 
are not quite sure how we are going to make it to the other 
side. You accept this as a challenge and you know a lot of work 
has to be done.
    Ms. Clarke. Absolutely. I think the only thing I am more 
passionate about than the lands of the West are the people out 
there, and I would look forward to working with this group, as 
well as with the people of the West to find solutions to the 
many challenges they face.
    Senator Domenici. I do not know how much you know about the 
State of New Mexico, but whenever the Southwest is mentioned 
here, sometimes Senators leave our State off the list. But I 
guarantee you we are part of that. You will hear a lot from the 
little State of New Mexico because of a couple of people around 
here, the chairman of the committee and myself. We are going to 
work very hard with you about our problems.
    So, let me start with one that is very, very difficult, and 
I want to ask you for your commitment. We have grazing leases 
that you all have issued out in our country, many of them in 
New Mexico, Arizona, and a few other States. There has been an 
enormous backlog. It is not an issue about whether people are 
entitled to grazing permits. It is an issue of your not being 
able to get them issued by the expiration date, and they have 
already cleared for renewal, and it does not get done. And so, 
we have had a very contentious situation as to what should 
happen.
    Those of us from the West have prevailed here and 
ultimately with sufficient force, and the President of the 
United States had to go along with us. And it is a simple 
proposition, and that is, if you do not get them issued, there 
is no penalty imposed for the use of the land and that you use 
them as if they were under lease until the lease is issued.
    Now, it would be much better if we had those leases issued, 
and I am going to ask you if you will undertake a high level 
look at that and see why we cannot get on with getting those 
done more expeditiously. I know the chairman shares with me the 
desire that we get that done. So, I would ask, Mr. Chairman, if 
you would let me, that as soon as you have time, that you tell 
us how you can get that done.
    Ms. Clarke. Senator, I commit that I certainly would look 
at that. It is important that we not disrupt those operations 
and that we be able to work efficiently with landowners so that 
they can move ahead with their work. So, I would certainly be 
willing to look at that and see what we can do to fix what may 
be broken.
    Senator Domenici. You have got it right on the head when 
you say so that landowners and leaseholders can get on with 
their lives. There are some who did not understand that if you 
do not have the lease, you do not have the proprietary 
interests, as small or as large as one thinks they are, to 
conduct your business. To borrow money, et cetera, people are 
asking where is the lease. And if you do not have something 
that is as good as the lease, when you are making them wait, 
then they do not have a lease, and that is a very difficult 
thing for some of the rural families.
    Ms. Clarke. I appreciate that.
    Senator Domenici. Secondly, I find that you have a very 
good record of management in your job for your State, and there 
is no question your management skills must be brought to this 
Department and we must get our work done better. So, I want to 
just lay before you a situation and ask you again if you think 
you could help.
    I recently asked, after many years of oil and gas lessees 
complaining about things getting stuck in the mud--and I do not 
mean the mud of a rig, just that we do not get them done. They 
run into their own problems of different rules for the Forest 
Service than yours out in the same oil field with reference to 
completing activities to get on with either cleaning up the 
premise or producing oil and gas. From this meeting, I asked 
them to bring written information about the difficulties they 
are having. I do not want to hear any more. They brought me a 
very good, detailed list of the kinds of problems they were 
having because of the lack of uniformity of application, for 
instance, between you and the Department of Agriculture.
    I see no reason why people at your level cannot meet and 
decide why two giant parcels of land that abut each other in 
the same State are applying difficult rules and regulations 
about how clean is clean, about what rule applies in terms of 
drilling and not drilling, how long you wait.
    I wonder if I sent you kind of an inventory of these 
conflicts, if you would take a look and see if there are some 
of these that can be eliminated so we can be working off the 
same set of guidelines unless there is a legal barrier to that.
    Ms. Clarke. Senator, I certainly would be willing to look 
at that. I agree with your premise, that Government should work 
together, and we should provide efficient service to our 
customers and be somewhat transparent to them in terms of how 
we are dealing and not have a multiple set of different 
standards and rules that apply. I am good friends with Chief 
Bosworth of the Forest Service, and if confirmed, I look 
forward to working with him to try and build bridges between 
our agencies that will help us to accomplish that.
    Senator Domenici. After you have had a chance to review 
that list, I wonder if we gave you enough time to look at it, 
if you might find time to come to the part of New Mexico where 
these problems exist and perhaps spend a few hours at a meeting 
with the people and anybody else who wants to attend analyzing 
from your standpoint which can be fixed and which cannot and 
why not. Could you do that?
    Ms. Clarke. Senator, I would look forward to the 
opportunity to visit New Mexico and examine those issues with 
you.
    Senator Domenici. I would be pleased.
    Do you happen to know somebody that works for the Bureau of 
Land Management in Alaska, a lady named Linda Randell?
    Ms. Clarke. I do not.
    Senator Domenici. She works for the Bureau up there, and 
her ability to get things done and the way she handles them--
you remind me somewhat of that, and I would hope that you would 
run into each other in your professional activities.
    I ask that the remainder of my remarks, which are nothing 
but good statements about you, be made a part of the record, as 
if given.
    Ms. Clarke. Thank you, Senator.
    The Chairman. Those will be included in the record.
    Senator Domenici. I look forward to voting for you on the 
floor.
    Ms. Clarke. Thank you.
    Senator Domenici. Thank you.
    Thank you, Mr. Chairman.
    The Chairman. Thank you.
    Senator Wyden.
    Senator Wyden. Thank you, Mr. Chairman.
    I do not want to be harmful to Senator Domenici's causes, 
but I think your point about environmental assessments and 
grazing is absolutely right. We have got to get that done. And 
I wanted to ask a couple of additional questions about grazing 
if I could, Ms. Clarke.
    Rangeland reform instituted a variety of standards for 
measuring the health of public rangelands subject to grazing. 
But so far the standards have only been applied in a limited 
sort of way. The Colorado office of BLM has applied these 
strategies to recreation management, which strikes me as a very 
attractive kind of concept.
    Since maintaining the health of the land is ultimately the 
goal of all BLM actions, would you be willing to incorporate 
these standards for land health into all agency decision making 
processes? That would mean we would look at it for recreation, 
we would look at it for energy exploration, we would look at it 
in a variety of areas that go right to the heart of the mission 
of the BLM.
    Ms. Clarke. Senator, I am not today familiar with the 
standards for rangeland health, but I would look forward to the 
opportunity to familiarize myself with those standards and to 
determine what their applicability should be to all BLM 
interests and activities.
    Senator Wyden. One of the reasons I think westerners are so 
frustrated--and Senator Domenici touched on it--is that these 
environmental assessments just go on and on and people just 
feel like there is no predictability and there is no certainty 
with respect to assessments and permits and the like, we have 
now got some people who genuinely are interested in retiring 
their permits. These are individuals who would voluntarily 
relinquish permits.
    Now, Senator Smith and I have been through a variety of 
debates in our State about what constitutes something that is 
really voluntary, and my idea is it is not voluntary if the 
Government makes your life so miserable on an ongoing basis, 
that you finally say: I have got no choice: I am so-called 
voluntarily relinquishing my rights. But some people do seem to 
want to retire grazing permits in a truly voluntary way because 
it is in their interest.
    As BLM Director, would you support creating a program, a 
process so that when people do want to voluntarily retire a 
grazing permit, they would have an opportunity to do it?
    Ms. Clarke. Senator, I would certainly commit to getting 
into that issue and trying to understand the pros and cons on 
all sides of that. So, I look forward to working with the 
committee on addressing that possibility and the potential for 
using that as a tool to manage resources.
    Senator Wyden. The last question I had is one that I think 
would really give you a chance to talk about where you want to 
see this agency head. I think you have responded to our 
questions today. I intend to vote for you. I intend to support 
your nomination, recognizing that it is clear we are not going 
to agree on everything that comes up.
    But I would like to get a sense of how you want to take 
this major land conservation and management agency and figure 
out a way to creatively ensure that as the mining and grazing 
and various economic considerations, energy production, are 
dealt with, that we are also going to protect our national 
treasures. I think it would be very helpful if you would sketch 
out for us how you think you might go about that and 
particularly any ideas you have for getting beyond some of the 
old impasses.
    For example, what Senator Craig and I did on the county 
payments bill, instead of going off and saying we are going to 
run a lawyer's full employment program when there is a dispute, 
we said that counties that can agree on ideas for local 
initiatives would get the funds, and if they could not agree, 
the money would go somewhere else. And it created an incentive 
for people to work together. I think I would be interested in 
your ideas in this area, as you go to trying to ensure that 
this principal land agency balances economic considerations 
with the environmental side.
    Ms. Clarke. I believe that the work of the BLM is all about 
quality of life for our Nation, and I refer to that because I 
think we have interests at the BLM that relate to the economic 
stability and vitality of the domestic resources within this 
country, but we also manage lands that provide wonderful 
intrinsic values that we all enjoy, recreation opportunities, 
wilderness values. And I do believe it is inherent on this 
agency to protect those values as well as seeking to make sure 
the land is productive and meets the economic needs of not just 
the Nation as a whole, but of communities that are in place in 
those areas.
    I totally support the efforts that you are talking about to 
work collaboratively. I have had very, very positive 
experiences in bringing together people polarized on all sides 
of issues and helping them understand that they often have as 
much in common as they have in conflict, and that if we build 
on the commonalities, we can work together to find solutions 
that I think then are sustainable because we are giving 
consideration and respect to the multiple values and the 
multiple concerns that people have about the land.
    As I said, I feel passionately about the land in the West. 
I love it for its intrinsic values, but I am also greatly 
respectful of the way that it provides a livelihood and a 
living to many of the cultures of the West that I think are 
important and that we ought to respect and care for and also to 
meet the national needs of this country in this precarious 
time.
    Again, I am very much a fan and an advocate of innovation, 
of collaboration. You referred yesterday, Senator, to working 
from the bottom up, and I would welcome opportunities to engage 
communities and helping them to find and create solutions to 
the challenges. I appreciate the flexibility in the laws that 
govern BLM and think it can be wisely used while we make sure 
that we are adhering to the standards that are set by the 
Congress as we govern those lands.
    Senator Wyden. Thank you, Mr. Chairman.
    The Chairman. Thank you very much.
    Ms. Clarke, thank you very much for your testimony, and we 
will try to act quickly on your nomination. And we wish you 
well in this new position.
    Ms. Clarke. Thank you very much.
    The Chairman. The hearing is adjourned.
    [Whereupon, at 10:45 a.m., the hearing was adjourned.]
                                APPENDIX

                   Responses to Additional Questions

                              ----------                              

    Responses of Kathleen Clarke to Questions From Senator Bingaman
    Question 1. As a multiple-use agency, the Bureau of Land Management 
has perhaps the most difficult task of any Federal land management 
agency, with the inherent conflicts in decisions to conserve or develop 
natural resources. In recent years, greater emphasis was placed on 
ensuring the BLM's role as a major land conservation and management 
agency. As Director, what would be your vision of the future of the 
BLM? Do you foresee any major management or policy changes?
    Answer. I am committed to achieving the balance that the BLM's 
mandate demands. In order to do that, I want to consider innovative 
approaches including partnerships with state and local governments, 
land users, and other public land stakeholders.
    Insofar as major management or policy changes are concerned, I 
first want to gain more familiarity with the Bureau's wide range of 
programs and expertise, engage in dialogue with BLM's managers and 
employees, and talk with a broad range of stakeholders. Further, I look 
forward to working with the members of this Committee and other elected 
officials to identify issues that should be addressed.
    Question 2. The previous administration established the National 
Landscape Conservation System as an office within the BLM. What are 
your plans for this office?
    Answer. I have no immediate plans to address organizational issues 
in the Bureau. I want first to become familiar with the BLM's various 
offices and programs and to discuss with employees, managers, and 
stakeholders how we can help make the agency work better. Insofar as 
the BLM's National Landscape Conservation System is concerned, I intend 
to provide guidance for responsive planning processes and ongoing 
direction to protect the resources and to work directly with 
communities and partners.
    Question 3. As you know, President Clinton designated several 
National Monuments under the authority of the Antiquities Act. Most of 
these monuments are administered by the BLM. In addition, Congress 
designated other BLM areas as National Monuments or National 
Conservation Areas. If confirmed, what actions will you take to ensure 
that these areas will receive the staffing and funding necessary to 
fully protect the resources they were designated to protect?
    Answer. If confirmed as BLM Director, I will review funding and 
staffing needs to properly manage the monuments.
    Question 4. Is the BLM or the Interior Department considering 
making any changes to either the management authorities or boundaries 
of any BLM area designated as a National Monument?
    Answer. I understand that the Secretary has asked for public 
comment on the management of BLM National Monuments and possible 
boundary changes. If confirmed, I will be working in consultation with 
her and with interested members of Congress in addressing these issues.
    Question 5. Our office received a BLM press release last week 
announcing that the manager of the Grand Staircase-Escalante National 
Monument is leaving the monument to assume a position at Grand Canyon 
National Park. Was this transfer initiated by the monument manager or 
by the Interior Department?
    Answer. I am unaware of the background and details of the recent 
announcement regarding the manager of the Grand Staircase-Escalante 
National Monument.
    Question 6. Have you been involved in any discussions regarding the 
transfer of this employee from the Grand Staircase-Escalante National 
Monument?
    Answer. I have had casual discussions related to management of the 
Grand Staircase-Escalante National Monument. I have not had any 
involvement in decisions regarding personnel issues in the monument or 
transfer of the monument manager.
    Question 7. In 1995, the BLM adopted new regulations governing its 
livestock grazing program. Although the regulations were challenged in 
court, the U.S. Supreme Court upheld them by a 9-0 decision. Do you 
support the current grazing regulations? If not, what areas will you 
recommend changing and why?
    Answer. I have not reviewed the current regulations to determine 
whether or not changes are needed. If confirmed, I commit to looking 
into this issue. If changes are appropriate, I will work with BLM's 
many constituents and with interested members of Congress to ensure 
that full public involvement occurs throughout the regulatory process.
    Question 8. One of the major issues during the previous debate on 
grazing reform concerned the need for BLM to take proactive measures to 
ensure the health of public rangelands. Where grazing is contributing 
to the failure to meet rangeland health standards, do you think it's 
important to take action on the ground to remedy the situation?
    Answer. The BLM must manage public lands for both current and 
future generations. In situations where grazing is contributing to a 
failure to meet the rangeland health standards, I am committed to 
working to identify appropriate actions to meet those standards.
    Question 9. As a Utah resident, you are probably familiar with the 
issue of R.S. 2477 rights-of-way across Federal lands. As you know, the 
19th century authority granting these rights-of-way was repealed when 
FLPMA was enacted in 1976. However, there has been ongoing disagreement 
between various States and the Federal government about the validity of 
rights-of-way that were grandfathered prior to 1976. In order to avoid 
annual legislative debates on the issue, Congress passed a law 
prohibiting the Interior Department from implementing any final 
regulation related to the disposition of R.S. 2477 claims unless 
approved by a future Act of Congress. I understand that the Department 
is now in discussions with the State of Utah regarding the State's 
lawsuit claiming thousands of R.S. 2477 rights-of-way across Federal 
lands in Utah. Although the R.S. 2477 issue is somewhat arcane, it has 
tremendous implications throughout the west. Will you commit that to 
keep this Committee informed prior to any decision by the BLM to adopt 
a policy recognizing or denying R.S. 2477 rights-of-way claims?
    Answer. Yes, I will work with the Committee and interested members 
of Congress on the challenges presented by R.S. 2477 right-of-way 
claims.
    Question 10. You have most recently represented the State of Utah 
as Executive Director of its Department of Natural Resources. If 
confirmed, you will now represent the interests of the United States. 
Do you perceive any conflict between your past position and your new 
responsibilities? What differences will you bring to the R.S. 2477 
issue as BLM Director in contrast to your position with the State of 
Utah?
    Answer. If confirmed, I will rely upon the advice and counsel of 
the Office of the Solicitor within the Department in representing the 
interests of the United States regarding R.S. 2477 claims.
    Question 11. Non-native invasive plants are a serious problem on 
lands across the country. BLM lands are no exception. What plans do you 
have to address this significant ecological issue?
    Answer. I agree that non-native invasive plants are a significant 
ecological issue on all lands including BLM administered lands. If 
confirmed, I will work with our many partners including local and 
county weed districts as well as other Federal and State agencies and 
private landowners to prevent, locate, and control weed infestations.
    Question 12. Sound, objective science plays a key role in good 
natural resources decision making. A BLM Science Advisory Board was 
established in 1998 to advise the Director on communicating BLM's 
science needs to other agencies and the scientific community, and to 
help transfer new technology and science to BLM's field operation. The 
Board also assisted in the development of a BLM strategic science plan. 
Are you committed to supporting good science at the BLM through your 
management and budget initiatives?
    Answer. BLM's resource decisions must be supported by good science. 
This is particularly important as the BLM begins the long term process 
of revising its Land Use Plans. If I am confirmed, the strategic 
science plan will be considered as part of BLM's management and budget 
initiatives.
    Question 13. What are your plans for the BLM Science Advisory 
Board?
    Answer. I am not yet familiar with the work of the BLM Science 
Advisory Board. My understanding is that the BLM has a strategic 
science plan that incorporates a science advisory board. The integrity 
of science in the Bureau's natural resource decisions is of critical 
importance, and if confirmed, I will review BLM's current science 
strategy and work with the Committee if improvements need to be made.
    Question 14. The previous Administration made a significant 
commitment to fulfilling the federal government's tribal trust 
responsibility. President Clinton issued a Memorandum on Government-to-
Government Relations With Native American Tribal Governments, Executive 
Order No. 13084, and Executive Order 13175 on November 6, 2000, which 
expressly acknowledges the ``unique legal relationship'' of the United 
States with federally recognized tribes and the rights of tribes to 
exercise inherent sovereign powers over their members and lands. As BLM 
Director, what leadership initiatives do you plan to undertake to 
ensure that the tribal trust responsibility is fulfilled?
    Answer. Secretary Norton has made it a top priority of the 
Department to strengthen the trust relationship we have with American 
Indians and Alaska Natives. If confirmed as the BLM Director, I will 
work closely with Secretary Norton on this commitment to achieve 
greater intergovernmental communication and cooperation with Tribes.
    Question 15. One concern that has been voiced by producers is the 
length of time it sometimes takes to secure environmental compliance 
for the issuance of onshore oil and gas leases. As you know, I have a 
strong interest in a well-run onshore oil and gas leasing program. I 
want to ensure that we have both the benefit of the substantial oil and 
gas resources that are produced on BLM lands and that this production 
occurs in an environmentally sensitive manner. Would you support 
increasing the authorization and funding for carrying out environmental 
compliance requirements necessary for the issuance of leases under the 
federal onshore oil and gas leasing program?
    Answer. If confirmed as BLM Director, I commit to ensuring that 
actions and decisions within the Bureau follow good environmental 
practices and represent a balanced approach to multiple use management 
that protects and supports healthy natural systems. It is important to 
me to ensure the BLM has the resources it needs to achieve that balance 
within a meaningful time frame.
    Question 16. In past years there have been proposals to devolve BLM 
oil and gas management responsibilities to the States. Have you had any 
involvement with this issue in your position with the State of Utah? In 
general, what are your views on this issue?
    Answer: Over the past several years, there have been various 
proposals to devolve BLM oil and gas management responsibilities to the 
States. I am aware of the recommendations outlined by the Interstate 
Oil and Gas Compact Commission (IOGCC), States, Tribes, and the BLM 
throughout the 1990s concerning this issue. I know that many factors 
and circumstances have changed since devolution was originally 
proposed. If confirmed as BLM Director, I will give full consideration 
to all aspects of this issue, including original recommendations, 
changes in BLM programs and policies and current state and industry 
concerns. Staff from the Utah Department of Natural Resources, Division 
of Oil, Gas, & Mining, have participated in discussions relative to 
this matter, but I have not been personally involved.
    Question 17. Recently, Secretary Norton wrote to me stating that 
the Administration would support legislative efforts to reform the 
Mining Law of 1872. Can you provide more detail on what provisions the 
Secretary would support?
    Answer. It is my understanding that the Secretary expressed a 
willingness to foster a dialogue on mining law reform. At this time, I 
do not have further details on specific provisions, but I look forward 
to contributing to such a dialogue with the Secretary, interested 
members of Congress, and other stakeholders.
    Question 18. Does the Administration plan to transmit to the 
Congress legislation to reform the Mining Law of 1872?
    Answer. I am unaware of any plans to transmit to the Congress 
legislation to reform the Mining Law of 1872.
    Question 19. At a recent hearing before the House Resources 
Subcommittee on Energy and Minerals, a representative from the 
Department of the Interior testified that the preferred alternative for 
H.R. 1913 (relating to the acquisition of private subsurface rights 
within the Acoma Reservation) was a direct purchase of the subsurface 
rights from the NZ Corporation. In your opinion, can BLM resolve this 
issue administratively?
    Answer. This is a complex issue with which I need to become more 
familiar before I am able to offer an opinion on the Bureau's 
administrative alternatives. If confirmed as Director, I would like to 
learn more about this and will work with you and other members of the 
New Mexico delegation.
               Responses to Questions From Senator Wyden
    In late March of this year Secretary Norton sent letters to 
governors and elected officials asking for their recommendations for 
planning of national monuments. I sent a letter to the Secretary 
supporting the Cascade-Siskiyou National Monument of Southern Oregon.
    Even though the letters from Secretary Norton went out to a very 
limited audience, the Department of the Interior received responses 
from not only the governors and elected officials to whom she addressed 
her letters but she also received an overwhelming 6,000+ unsolicited 
responses from citizens and public interest groups.
    Question. Aside from the legal requirements for public involvement 
in the planning process, how will you open this process up to a 
diversity of citizens and public interest groups--particularly those 
who felt disenfranchised by the intended limited audience for the 
Secretary's March letter?
    Answer. I believe strongly in coordination, cooperation, and 
consultation to further conservation, and I commit to work closely with 
Tribal, State and local governments, diverse stakeholders, and interest 
groups to go the extra mile to achieve this. Building broad-based 
partnerships with local communities is one of my top priorities.
    Question. Will you speak with the local recreationists, 
conservation groups, ranchers and other interested stakeholders?
    Answer. Yes I will.
    Question. Can you assure me that the new plans will be based on 
adequate and comprehensive data? Will these plans be based on a 
foundation of science to thoroughly analyze the impacts of the planning 
options?
    Answer. I support the use of good data and the best available 
science in the development of monument plans.
    Question. Secretary Norton hinted at boundary reductions. If 
boundary reductions are presented for consideration, will you also 
present boundary expansion options?
    Answer. The Secretary has stated that only Congress has the 
authority to change either proclamation mandated authorities or make 
boundary adjustments to BLM national monuments. I believe the BLM 
should give thoughtful consideration to all Congressional proposals for 
boundary adjustments, whether they are for a reduction or an expansion 
in size.
    Question. It is my understanding that the BLM's plan to issue a 
draft management plan for the Cascade-Siskiyou National Monument was 
delayed at the direction of the Secretary's office. It was supposed to 
be completed and released at the beginning of January 2001, yet now it 
looks like it won't be released until January 2002. That is 
unacceptable.
    The draft Cascade-Siskiyou National Monument management plan must 
be released before the end of this calendar year so the people of 
southwestern Oregon can begin assisting the BLM in the development of a 
management plan for this new Monument. Can you commit to that?
    Answer. It is my understanding that the Secretary is still 
evaluating responses to her March 2001 letter to elected officials 
asking for comments on the new national monuments. I commit to 
familiarize myself with this issue and work with you and other 
interested members of the Oregon Congressional delegation to move this 
process forward.
    Question. Before the Cascade-Siskiyou National Monument was 
designated much of its area was protected as the BLM's only ecological 
emphasis area (EEA): the Cascade-Siskiyou Ecological Emphasis Area. In 
a rare and refreshing cooperative venture, U.S. Timberland and local 
conservationists approached me about securing $500,000 in appropriated 
funds to acquire, for BLM, 560 acres of key U.S. Timberlands properties 
on the southeast slopes of Soda Mountain, next to BLM's recommended-
for-wilderness Soda Mountain Wilderness Study Area. The Weyerhauser 
Corporation, which owns the mineral rights to that land, was also in 
favor of the deal. Though I was able to secure $250,000 towards this 
purchase in the FY 2000 Senate Interior Appropriations bill, the House 
Appropriations Committee cut funding for the project entirely on the 
grounds that ``BLM didn't want that land.'' BLM told us they would 
pursue this project with us in the future. They haven't. Ms. Clarke, 
it's not every day that big timber companies and local conservationists 
in my state agree on a course of action. When they do, I want to 
encourage such cooperation. What's become of our request that BLM 
prioritize the purchase of these Soda Mountain lands from U.S. 
Timberlands?
    Answer. I am not familiar with this proposal. If confirmed, I will 
review the issue, and work with you on it.
    Question. There are other willing sellers in the Cascade-Siskiyou 
National Monument, as well. The local BLM has a file of property owners 
who have contacted BLM on their own initiative. What assurances will 
you give me that BLM will prioritize acquisitions from willing sellers 
in the Cascade-Siskiyou National Monument?
    Answer. I understand BLM has a long standing policy that it will 
only acquire lands from willing sellers. If confirmed, I intend to 
continue this course on all BLM managed lands, as well as in the 
Cascade-Siskiyou National Monument.
    Question. Some of the most biologically important unprotected lands 
in the American west are in southwest Oregon's Siskiyou Wild Rivers 
region, where public lands are mostly managed by the Forest Service and 
BLM. Not only do the Siskiyou Mountains host one of the most 
botanically diverse coniferous forests in the world, but the rivers and 
streams here have perhaps the best remaining wild salmon spawning 
habitat in the lower 48 states. I have consistently expressed my 
concern to the agencies about public lands mining in this region--
especially suction dredge and placer mining in these rivers and 
streams. The economic benefits of mining here are nil, while the damage 
to the wild fishery here from mining appears to be considerable. 
Fortunately, a Federal Register notice last January 22 gave much of 
this area a two-year time-out from new mining claims on both BLM and 
Forest Service land in much of the Siskiyou Wild Rivers area and 
directed the agencies to consider special management for the area 
beyond a longer withdrawal from mineral entry. To my dismay, Forest 
Service Chief Bosworth wrote Secretary Norton on October 2, asking her 
to terminate this ``proposed withdrawal'' on Forest Service land. To 
the best of my knowledge, neither agency has displayed the slightest 
intention of evaluating the Siskiyou Wild Rivers area for greater 
protection. Ms. Clarke, I know you can't speak for the Forest Service, 
but can you assure me that BLM will comply with both the direction and 
intent, as written, of the January 22 Federal Register notice regarding 
BLM lands in the Siskiyou Wild Rivers area? What compliance steps has 
BLM taken in the nine months since the Federal Register notice 
appeared, and what compliance steps will they continue to take?
    Answer. I have been informed that the BLM is fully complying with 
the intent of the January 22 Federal Register notice by ensuring that 
no new mining claims have been filed on the area. Additionally, I 
understand that the BLM is in the process of assessing what portions of 
the area should be permanently withdrawn from mineral entry. As this 
process continues, I will make sure that the BLM keeps Congress 
informed.
    Question. Ms. Clarke, as Secretary Norton pointed out in her 
testimony before the committee, the new monuments are under-funded both 
for the planning process and for managing the increased visitation to 
these important and special places.
    Can you assure the committee that the plans will be funded to meet 
all Monument purposes as set forth in each Monument proclamation or 
statutory requirement? I would like you to provide the committee with a 
proposal for funding for each monument, including funds and a proposed 
schedule for monument planning starts and completions, within sixty 
days of your confirmation.
    Answer. It is my understanding that the BLM is moving forward with 
the planning process for the new national monuments. I am fully 
supportive of the planning process because it will provide important 
opportunities for local communities to be involved in decisions for 
future management of their public lands. Funding for each monument will 
be dependent on management decisions that are made as a part of the 
planning process. I am not in a position to commit to a funding 
schedule for them at this time, but if confirmed, I would be pleased to 
work with the Committee on a proposed schedule of funding for BLM's 
national monuments.
    Question. Congress provided a nominal funding increase for land use 
planning in FY 2001. What progress has been made in eliminating the 
planning backlog and updating of plans, and what progress is 
anticipated for FY 2002 at the level of funding that has been provided?
    Answer. Land use plans are the basis for all management actions on 
public lands. It is my understanding that the 2001 funding increase for 
land use planning was the initial funding to begin a ten year process 
of revising the BLM's land use plans, and that additional funding has 
been provided for FY 2002. If confirmed, I will keep the Committee 
apprised of BLM's progress.
    Question. Coming from Utah you are undoubtedly familiar with the 
management of Grand Staircase-Escalante National Monument--the first 
national monument to be entrusted to the BLM. The BLM is also 
responsible for thirteen other new national monuments. Your management 
of the Grand Staircase-Escalante National Monument will set the tone 
for management of each of the other national monuments under your 
direction.
    I have been informed that the Grand Staircase-Escalante Monument 
BLM manager in Utah has been told she must leave her job, and I am 
concerned when career civil servants in the field are forced out by 
Washington, D.C. interference. My understanding is that it is illegal 
to remove a civil servant from a job simply because anybody--a Senator, 
a county commissioner, a Congressmen, a Governor, local activists--
doesn't like him or her or the job he or she is doing. I would like a 
detailed answer on why the Grand Staircase manager was forced out of 
her position.
    Answer. I am unaware of the background and details of the recent 
announcement regarding the manager of the Grand Staircase-Escalante 
National Monument. Therefore, I am unable to provide the information 
you are requesting.
    Question. What are your plans to instill confidence in the public 
as to your ability to manage each of the other national monuments? How 
will you gain the public's trust during the planning process?
    Answer. I believe the key to building public trust and confidence 
in the monuments is through active public involvement and locally based 
solutions. I will provide leadership to ensure that the Secretary's ``4 
Cs''--consultation, communication and coordination, all in the service 
of conservation--occur throughout the planning process.
    Question. Until recently, the National Park Service has been the 
primary caretaker of America's national monuments. In fact, it wasn't 
until 1996 that the BLM had any significant role in the management of 
national monuments. As you are aware, there is a lot of speculation 
regarding BLM's ability to manage these monuments with the foresight 
necessary to conserve today's diminishing resources for the long term.
    What will you do to ensure that the national monuments remain under 
your jurisdiction?
    Answer. I am excited to have the new opportunity for BLM to be an 
effective steward of these unique resources across the West. I look 
forward to engaging in this process to promote the success of the 
monuments.
    Question. How will you tap into the expertise of other agencies and 
organizations to develop the long-term management strategies for an 
ecosystem-wide approach?
    Answer. If confirmed, I intend to strengthen the consultation and 
cooperation among Federal, State and local agencies and stakeholders 
which have been developed by the BLM for the national monuments and 
national conservation areas it manages.
    Question. How will you work jointly with the other three land 
management agencies to adapt the best land conservation practices for 
the new monuments?
    Answer. If confirmed, I will work to collaborate and coordinate 
with the National Park Service, Fish and Wildlife Service, and Forest 
Service in the development of management plans for the monuments 
through the land use planning process. I intend to work in an open and 
cooperative fashion with the other bureau directors. I will encourage 
and welcome their input into the land use planning process for the new 
monuments.
    Question. What do you recognize as the most significant resource 
issues that you'll face?
    Answer. With regard to national monuments, there are numerous and 
diverse resource challenges. A balanced approach to conserving valuable 
resources and meeting the needs of communities is important. Developing 
partnerships with interested citizens, interest groups and communities 
will be a major goal in terms of protecting resources and getting 
public acceptance in complex land use plans and management decisions.
    Question. Are dams, pipelines, conveyances, transmission lines, 
rights of way, etc., appropriate in national monuments? If so, under 
what constraints? Are they appropriate in wilderness?
    Answer. It is difficult to generalize about the types of 
permissible activities in national monuments because uses for a 
particular monument depend on the language of the proclamation or 
legislation establishing the national monument. I will commit to work 
with the Solicitor's office to ensure that proposed activities within 
national monuments are consistent with the law.
    In general, these activities are not appropriate in wilderness 
areas, but they are subject to valid existing rights. If confirmed, I 
will work with the Solicitor to manage wilderness in accordance with 
the law.
    Question. How will you promote natural resource conservation in 
these new monuments?
    Answer. I believe the best way to promote natural resource 
conservation in the new monuments is to foster a sense of respect and 
appreciation for the resource values within these monuments.
    Question. Will you be recommending to Congress that additional 
national monuments and conservation areas be designated?
    Answer. At this time, I have not considered making any 
recommendations regarding monuments or conservation areas.
    Question. In January of this year, the BLM published new guidance 
manuals that address both its land use planning process (``Land Use 
Planning Handbook'') and the evaluation of lands that may be determined 
suitable for wilderness designation (``Wilderness Inventory and Study 
Procedures'').
    Are you committed to assuring that the BLM follows the new guidance 
articulated in these new manuals, including evaluating lands for their 
Wilderness potential under the guidelines set forth in the Wilderness 
Inventory handbook as a component of every new BLM land use planning 
effort?
    Answer. I am committed to the health and protection of natural 
resources on America's public lands, including designated wilderness 
areas. If confirmed as BLM Director, I will study the guidance issued 
in these new manuals and consider whether they constitute the best 
approach for resource protection.
    Question. The BLM is responsible for managing a multitude of 
important natural resource values, many of them fragile or at-risk 
including:

  <bullet> 306 federally listed species
  <bullet> 35 species proposed for listing
  <bullet> More than 1,000 species identified by the BLM as sensitive
  <bullet> More than 6 million acres of Wilderness Areas
  <bullet> National Scenic Trails, National Monuments and Wild and 
        Scenic Rivers

    Moreover, Section 102(a)(8) of FLPMA directs that,
    ``. . . the public lands be managed in a manner that will protect 
the quality of scientific, scenic, historical, ecological, 
environmental, air and atmospheric, water resource, and archeological 
values; that, where appropriate, will preserve and protect certain 
public lands in their natural condition; that will provide food and 
habitat for fish and wildlife and domestic animals; and that will 
provide for outdoor recreation and human occupancy and use . . .''
    How do you plan to serve the public interest in safeguarding these 
resources and treasures, while simultaneously meeting the President's 
request for increased energy production on our public lands?
    Answer. If confirmed as BLM Director, I am committed to managing 
public lands in a manner that recognizes the importance of protecting 
our natural resources and managing them in a way that promotes a 
healthy environment and a strong economy. I do not believe we have the 
option of choosing between the demands of growth and the imperative for 
conservation. We must do both.
    Question. The President's Energy Plan suggests that stipulations 
imposed on some oil and gas leases to protect resource values such as 
wildlife habitat or riparian areas should be weakened. Do you believe 
that too much protection has been afforded environmental values in the 
BLM's oil and gas leasing and development program? If so, please 
explain how you intend to assure protection of the multitude of 
resources values on the public lands that could be put at risk of 
damage from oil and gas activities.
    Answer. If confirmed as BLM Director, I commit to ensure that 
actions and decisions within the Bureau follow good environmental 
practices and represent a balanced approach to multiple use management 
that protects and supports healthy natural systems.
    Question. Currently, BLM sells oil and gas leases in sensitive 
areas on public lands without first completing a site-specific 
environmental review of the area that includes an opportunity for 
public participation. Indeed, rather than conduct current environmental 
reviews and assessments, BLM relies on old and dated NEPA documents 
that typically did not include site-specific analyses. In addition, 
conditions have changed to such an extent (new T&E species listed, 
critical habitat designated, etc.) that many of these old NEPA 
documents are no longer accurate, therefore making reliance on these 
documents inappropriate.
    Subsequently, when the leaseholder requests permission to drill, 
BLM completes a site-specific environmental review, but unfortunately 
cannot implement many of the restrictions and mitigation measure that 
the site-specific environmental review indicates should be implemented 
because BLM is limited to those restrictions/stipulations that were 
initially incorporated into the lease itself. This process results in 
many leases being sold in critical habitat, proposed wilderness areas, 
etc. with few, if any restriction (i.e. *No Surface Occupancy* 
stipulation).
    As BLM Director, what would you do to remedy this situation? Would 
you institute a reasonable process of review so that the BLM looks 
before it leases? In other words, would you require that a site-
specific environmental review be completed prior to a parcel being 
offered in a lease sale?
    Answer. I am informed that the BLM is currently involved in a 
public process to update the Land Use Plans for areas containing high 
energy potential and important sensitive resources. This process 
includes consultation and collaboration with other Federal agencies 
with regulatory oversight for the Endangered Species Act to ensure that 
the leasing decisions contain the appropriate stipulations. I am not 
familiar with the specific details of the Bureau's environmental review 
process, but if confirmed, I will learn more about it and will work 
with you to identify the environmental review needs of our public 
lands.
    Question. The BLM has been designated for a lead role in complying 
with provisions of Section 604 of the ``Energy Policy and Conservation 
Act Amendments of 2000''.
    Please provide the Committee with a status report on the progress 
that BLM has made to date in complying with the EPCA amendment study 
requirements.
    Answer. I understand that the BLM, in coordination with the U.S. 
Forest Service, Department of Energy and the U.S. Geological Survey, is 
in the process of preparing reports on major oil and gas basins in the 
Rocky Mountain region as part of the EPCA inventory. If confirmed, I am 
willing to provide a status report to the Committee and other 
interested members of Congress.
    Question. Has the BLM decided upon the methodology to be used in 
assessing the availability of public lands for oil and gas activities? 
If so, will you please provide the Committee with a description of the 
methodologies the BLM will be employing in making these assessments?
    Answer. I have been informed that the BLM is still developing the 
methodology to assess availability of public lands for oil and gas 
activities. If confirmed, I will provide the Committee with the 
methodology.
    Question. In your June 12, 1999 testimony before the Congressional 
hearing on CARA, you were representing Utah's Division of Natural 
Resources when you stated that ``CARA funding will allow biologists to 
monitor wildlife species and cooperatively manage important wildlife 
habitat so that many species never reach the threatened or endangered 
list.'' You expressed a clear concern for threatened and endangered 
species. In fact, last year, you managed to work with the Utah State 
Legislature to secure funding in the amount of $3 million to protect 
and recover endangered species. In your testimony regarding CARA, you 
also commented that ``CARA revenues could fund purchases of 
conservation easements, which leaves the land in private ownership, 
mostly ranches and farms, while preserving critical habitat for 
wildlife.'' This suggests a clear concern for habitat and a vivid 
understanding of the critical role that habitat plays in the health of 
a species.
    How will you influence the planning and management of the 15 new 
national monuments under direction to ensure that habitat is not only 
protected, as the law requires, but also enlarged and enhanced for the 
long-term preservation of these threatened and endangered species?
    Answer. I understand that land use plans will be completed for each 
of the national monuments and that these plans will be prepared in 
compliance with their individual Proclamations and BLM's planning 
process. In addition to public scoping, all completed land use plans 
undergo Endangered Species Act consultation with the appropriate 
regulatory agency (U.S. Fish and Wildlife Service and/or the National 
Marine Fisheries Service) as necessary to ensure that ESA issues are 
properly addressed.
    Question. What will you do to increase funding for the ESA and to 
ensure that the law is not compromised?
    Answer. I have been informed that in response to a request from 
Congress, the Bureau prepared a Report to Congress in March of 2001 
entitled ``Effects of Endangered Species Act Listings on Bureau of Land 
Management Programs and Activities.'' This report was attached to the 
Bureau's FY 2002 Budget Justification and identified specific program 
needs and recommendations related to T&E species management. If 
confirmed, I will review these recommendations and stand ready to work 
with all parties on ESA-related activities.
    Question. Will you work to strengthen the Act to include habitat 
protection?
    Answer. The Fish and Wildlife Service has the primary 
responsibility within the Department of the Interior for the 
administration of the Endangered Species Act. As such, that agency 
would take the lead on any recommended changes to the Act. I have been 
informed that the BLM is working on the important issue of habitat 
protection by, among other things, taking proactive steps to identify 
key areas for conservation and restoration of habitats for ``at risk'' 
species to prevent the need for listing under the ESA.
    Question. The Endangered Species Act has many far-reaching 
implications for the BLM grazing permittees. How do you plan to ensure 
common sense and sound science is being used across the board in the 
management of threatened and endangered species?
    Answer. You are correct that Endangered Species management can have 
significant implications on BLM management of the many activities 
permitted on public lands. I have always sought common sense solutions, 
using sound science, to resolve resource conflicts. If confirmed, I 
will continue to do so as Director of BLM.
    Question. When you were director of the Utah Department of Natural 
Resources, you oversaw a drastic change in how the Utah Division of 
Wildlife Resources identified ``state sensitive species.'' In fact, it 
was widely reported that the changes you implemented, namely providing 
an opportunity for industry to wade into a previously science-based 
sensitive species designation process, was done under pressure from the 
oil and gas industry. In addition, under your watch, Utah Division of 
Wildlife Resource biologists and staff were discouraged from 
communicating directly with their federal counterparts about either 
sensitive species or critical wildlife habitat without first talking 
with politically appointed staff.
    What assurance can you offer that if appointed Director of BLM you 
would ensure that BLM biologists are encouraged to talk with their 
state counterparts, as well as to speak openly about the pros and cons 
of a particular project?
    Answer. If confirmed, I look forward to encouraging and working 
with BLM biologists to consult, coordinate, communicate and work 
collaboratively with their counterparts at the State and local levels 
in an open, public process. This is an important principle for all 
programs in the BLM.
    Question. The future of the BLM is at the crossroads. It can choose 
to continue to build upon its progress in becoming the major land 
conservation and management agency, or it can choose to ignore its 
potential and the American public's desire to protect our remaining 
lands.
    What role do you see for the National Landscape Conservation System 
and its Office with the BLM Directorate?
    Answer. I have no immediate plans to address organizational issues 
in the Bureau. I want first to become familiar with the BLM's various 
offices and programs and to discuss with employees, managers, and 
stakeholders how we can help make the agency work better. Insofar as 
the BLM's National Landscape Conservation System is concerned, I intend 
to provide guidance for responsive planning processes and ongoing 
direction to protect the resources and to work directly with 
communities and partners.

                                    

      

</pre></body></html>
